<html>
<title> - THE STATE OF FOREIGN LANGUAGE CAPABILITIES IN NATIONAL SECURITY AND THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 106-801]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-801

THE STATE OF FOREIGN LANGUAGE CAPABILITIES IN NATIONAL SECURITY AND THE 
                           FEDERAL GOVERNMENT

=======================================================================



                                HEARINGS

                               before the

               INTERNATIONAL SECURITY, PROLIFERATION, AND
                     FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                       SEPTEMBER 14 AND 19, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-304                     WASHINGTON : 2001



_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

      INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL SERVICES 
                              SUBCOMMITTEE

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
JUDD GREGG, New Hampshire            JOHN EDWARDS, North Carolina
                   Mitchel B. Kugler, Staff Director
              Richard J. Kessler, Minority Staff Director
                      Julie A. Sander, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Cochran.............................................. 1, 21
Prepared statement:
    Senator Voinovich............................................     2

                               WITNESSES
                      Thursday, September 14, 2000

Ellen Laipson, Vice Chairman, National Intelligence Council......     3
Ruth Whiteside, Deputy Director, National Foreign Affairs 
  Training Center, Department of State...........................     6
Christopher K. Mellon, Deputy Assistant Secretary of Defense for 
  Intelligence, Department of Defense............................     8
David E. Alba, Assistant Director, Investigative Services 
  Division, Federal Bureau of Investigation......................     9

                      Tuesday, September 19, 2000

Hon. Richard W. Riley, Secretary of Education, accompanied by 
  Scott Fleming, Assistant Secretary for Legislative Affairs.....    22
Robert O. Slater, Director, National Security Education Program..    28
Dan E. Davidson, President, American Councils for International 
  Education......................................................    31
Martha G. Abbott, Foreign Language Coordinator, Fairfax County 
  Public Schools.................................................    35
Frances McLean Coleman, Teacher/Technology Coordinator, Ackerman 
  High School and Weir Attendance Center, Choctaw County, 
  Mississippi....................................................    38

                     Alphabetical List of Witnesses

Abbott, Martha G.:
    Testimony....................................................    35
    Prepared statement...........................................   103
Alba, David E.:
    Testimony....................................................     9
    Prepared statement...........................................    66
Coleman, Frances McLean:
    Testimony....................................................    38
    Prepared statement...........................................   108
Davidson, Dan E.:
    Testimony....................................................    31
    Prepared statement with attachments..........................    93
Laipson, Ellen:
    Testimony....................................................     3
    Prepared statement...........................................    49
Mellon, Christopher K.:
    Testimony....................................................     8
    Prepared statement...........................................    61
Riley, Hon. Richard W.:
    Testimony....................................................    22
    Prepared statement...........................................    72
Slater, Robert O.:
    Testimony....................................................    28
    Prepared statement with attachments..........................    79
Whiteside, Ruth:
    Testimony....................................................     6
    Prepared statement...........................................    56

                                APPENDIX
                      Thursday, September 14, 2000

Additional material submitted for the Record:
    Article from CNN, May 7, 1999, entitled ``Chinese demand U.N. 
      meeting after Belgrade embassy attached''..................   110
    Article from The Washington, Post, May 8, 1999, by Daniel 
      Williams, entitled ``NATO Missles Hit Chinese Embassy''....   116
    Article from CNN, May 9, 1999, entitled ``Amid protests, U.S. 
      says `faulty information' led to Chinese embassy bombing''.   119
    Report on Foreign Language Proficiency.......................   123
    Cover Story: Area Studies Putting the World in Context, May 
      1997, State Magazine.......................................   128

                      Tuesday, September 19, 2000

Prepared statements submitted for the Record from:
    Rebecca R. Kline, President, National Council for Languages 
      and International Studies, Executive Director, Northeast 
      Conference on the Teaching of Foreign Languages, and 
      Adjunct Assistant Professor of French, Penn State 
      University.................................................   129
    Myriam Met, President, National Network for Early Language 
      Learning...................................................   133
    Anna Uhl Chamot, Ph.D., Co-Director of the National Capital 
      Language Resource Center at Georgetown University, the 
      George Washington University, and the Center for Applied 
      Linguistics, Washington, DC................................   142
    Kathleen M. Marcos, Center for Applied Linguistics, 
      Washington, DC.............................................   147
    Gilbert W. Merkx (University of New Mexico) and David Wiley 
      (Michigan State University), Co-Chairs, Council of 
      directors of Title VI National Resource Centers for Foreign 
      Language and Area Studies..................................   155
Letters received by Senator Cochran from:
    Virginia S. Ballinger, President, National Council of State 
      Supervisors of Foreign Languages, dated September 13, 2000.   158
    Edward M. Dixon, Ph.D., Academic Technology Coordinator For 
      Languages and Linguistics, Georgetown University, 
      Washington, DC, dated September 19, 2000...................   159
    Susan Schmidt, Executive Director, Alliance of Associations 
      of Teachers of Japanese, University of Colorado, Boulder, 
      CO, dated September 18, 2000...............................   161
    Lynne McClendon, Executive Director, Southern Conference on 
      Language Teaching, dated September 9, 2000.................   162
    Scott McGinnis, Ph.D., Executive Director, National Council 
      of Organizations of Less Commonly Taught Languages, dated 
      September 18, 2000.........................................   164
Additional Material Submitted for the Record:
    S. 601, Foreign Language Education Improvement Amendment Act 
      of 1999....................................................   166
    Statement from Congressional Record, March 11, 1999..........   168
    Emily Wax, Schools Desperate for Foreign Language Teachers, 
      July 4, 2000. The Washington Post, p. A09..................   170
    Speaking in Tongues. Newsweek: How to Get Into College, p. 34   173
    Marcia Harmon Rosenbusch, Director, National K-12 Foreign 
      Language Resource Center, Iowa State University, prepared 
      statement..................................................   175
    Richard D. Brecht, Ph.D., Director, The National Foreign 
      Language Center at the University of Maryland, prepared 
      statement..................................................   178

 
THE STATE OF FOREIGN LANGUAGE CAPABILITIES IN NATIONAL SECURITY AND THE 
                           FEDERAL GOVERNMENT

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2000


                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:05 a.m. in 
room SD-342, Dirksen Senate Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senator Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order.
    Today we are having our first hearing on the state of 
foreign language capabilities in national security and the 
Federal Government.
    Earlier this year, the House-Senate International Education 
Study Group hosted a briefing on the crisis in Federal language 
capabilities. As the subject of that briefing suggests, it is 
feared by some that the deficiencies among Federal agencies and 
the departments which have national security responsibilities 
in our government are serious enough to be called a crisis. 
This hearing will examine that subject.
    We already know from previous hearings in both houses of 
Congress that this has been a serious problem for some time. 
There is a concern that the situation is getting worse rather 
than better. Are the right languages being taught to enough 
people? Are contract linguists sufficient for high level 
analysis? The Defense Language Institute trains up to 5,000 
military personnel in 52 languages every year. The Foreign 
Service Institute teaches over 60 languages to its recruits. 
Our investment in training is very expensive. It costs $70,000 
in tuition for foreign service officers to become proficient in 
some languages.
    Our security depends upon our ability to communicate with 
other nations' security agencies to interdict drug trafficking, 
monitor terrorist activities, and conduct joint military 
operations. Having individuals who understand the languages of 
other nations is important to our success in diplomacy, 
defense, and intelligence-gathering. We need to know how we can 
do a better job in meeting the need of our government personnel 
for foreign language proficiency.
    We appreciate very much the witnesses who are here today to 
help us understand these issues. Ellen Laipson is Vice Chairman 
of the National Intelligence Council; Ruth Whiteside, Deputy 
Director of the National Foreign Affairs Training Center; 
Christopher Mellon, Deputy Assistant Secretary of Defense for 
Intelligence; and David E. Alba, Assistant Director of the 
Investigative Services Division. Your full written statements 
will be printed in the record in full, and we hope you will be 
able to summarize your statements for us at this hearing.
    I am going to ask at this point that a statement by our 
distinguished fellow Subcommittee Member Senator Voinovich of 
Ohio be printed in the record in full.
    [The prepared opening statement of Senator Voinovich 
follows:]

            PREPARED OPENING STATEMENT OF SENATOR VOINOVICH

    Good morning. I would like to commend you, Mr. Chairman, for 
holding this important hearing. Since July of last year I have held six 
hearings in my Subcommittee on Oversight of Government Management and 
Restructuring and the District of Columbia on various aspects of the 
human capital crisis confronting the Federal Government. The purpose of 
my Subcommittee's hearings has been to learn how the lack of attention 
governmentwide to sound workforce policies has adversely affected the 
management of Federal agencies and programs.
    Your hearing today is interesting, Mr. Chairman, because it focuses 
on a specific problem--the state of our foreign language capability--
and in doing so you are able to expose an acute need, which I think 
makes it easier for everyone to understand the consequences of what I 
call the human capital crisis facing the Federal Government.
    Perhaps the current shortfalls in our language capability and their 
affect on mission success are best demonstrated in the ongoing U.S. 
peacekeeping intervention in the Balkans, an operation in which I have 
keen interest.
    In testimony before the House Armed Services Committee, General 
Wesley Clark, former Supreme Commander of NATO, stated that NATO's 
actions in the Balkans had generated significant language requirements. 
At the same time, he said, you really have to look hard to find a staff 
sergeant in the U.S. Army who speaks fluent Albanian. There just aren't 
many of them, and the military is always going to be short of skilled 
linguists.
    Therefore, the Department of Defense has had to hire more than 900 
linguists on contract for its operations in the Balkans. Several of the 
contractors, in turn, are experiencing difficulty in recruiting 
qualified personnel to meet their obligation to the Defense Department. 
And depending upon the sensitivity of the situation, the use of non-
U.S. Government personnel raises concerns about security.
    Clearly, the shortage of organic language skills in the armed 
forces diminishes our peacekeeping ability. In the Balkans, our 
soldiers lack the cultural awareness and understanding that comes with 
a command of the spoken language. It almost certainly hinders our 
ability to cooperate with and assist the people we are there to help. 
Furthermore, it invariably makes conflict avoidance and resolution more 
difficult as well.
    For the foreseeable future, our lack of language capabilities is 
going to greatly increase the difficulty of peacekeeping operations and 
compromise the safety of our troops in the Balkans and elsewhere.
    There is another example I would mention, Mr. Chairman. Over half 
of the linguists and international experts in the FBI are nearing 
retirement, which could leave the FBI woefully short of the personnel 
needed to investigate international organized crime. We are seeing this 
retirement trend in critical positions throughout the Federal 
Government, and we must do something about it, especially since the 
current administration has failed to take the initiative.
    Mr. Chairman, earlier this year, Senator DeWine and I introduced 
legislation to provide workforce realignment authority to the 
Department of Defense. Its purpose is to assist the Department in 
meeting its need for qualified staff in professional fields, such as 
linguists and computer specialists. The modified language of our bill 
was amended to the defense authorization bill, which is still in 
conference. But it is only a down payment on the more comprehensive 
reforms that are needed to address the skills shortfalls in the Federal 
workforce. My Subcommittee is working on a report that will explore 
ways to improve the management of Federal agencies and programs through 
a concerted effort to develop and retain a world-class civil service, 
and I look forward to sharing that report with my colleagues and the 
next administration.
    Mr. Chairman, I thank you once again for holding this hearing, and 
look forward to working with you, Senator Akaka, and Chairman Thompson 
next year on human capital reform.

    Senator Cochran. Ms. Laipson, you may proceed first. Thank 
you.

    STATEMENT OF ELLEN LAIPSON,\1\ VICE CHAIRMAN, NATIONAL 
                      INTELLIGENCE COUNCIL

    Ms. Laipson. Thank you very much, Mr. Chairman. Thank you 
for giving me the opportunity to address your Subcommittee 
regarding the Intelligence Community's foreign language 
requirements. I approach the subject from three perspectives. 
As the Vice Chairman of the NIC, I have a role in producing all 
source analysis and am aware of the Intelligence Community's 
capabilities to do so. As Vice Chairman of the National 
Intelligence Collection Board, I participate in discussions 
about collection needs and shortfalls, including our ability to 
process and exploit foreign language material. And lastly, I am 
the Director of Central Intelligence's representative on the 
National Security Education Program Board, which sets broad 
guidelines for this new foreign language scholarship program, 
about which your Subcommittee will be hearing more in a 
subsequent hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Laipson appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    Let me say a few words just to define what the Intelligence 
Community is. It is a wide array of agencies and institutions 
under the DCI's leadership. It comprises principally of the 
CIA, the Defense Intelligence Agency, the National Security 
Agency, the National Reconnaissance Office, and the Department 
of State's Bureau of Intelligence and Research, as well as 
components of other departments and organizations. I will try, 
in my remarks, to give general points that would be true of 
virtually all of these agencies and also identify for you 
issues that may pertain to some parts of the community more 
than others.
    One cannot overstate the centrality of foreign language 
skills to the core mission of the Intelligence Community. 
Foreign languages come into play at virtually all points of the 
intelligence cycle--from collection to exploitation to analysis 
and production.
    The collection of intelligence depends heavily on language, 
whether the information is gathered from a human source through 
a relationship with a field officer, or gathered from a 
technical system.
    Information then has to be processed and exploited, which 
entails verifying the accuracy and explaining it in clear and 
unambiguous terms.
    All source analysts then integrate these intelligence 
reports along with media reports, including information from 
the Internet, which, as many people don't know, is now 
increasingly in non-English languages, embassy reporting, and 
other information to produce finished intelligence products for 
decisionmakers.
    Of course, the finished product is in English. But the 
inputs may come from several different foreign languages and 
need to be assessed by a range of people with the ability to 
translate and interpret the material in its original language 
and in its particular context.
    Mr. Chairman, the Intelligence Community has a large number 
of talented people with the appropriate language skills. But 
their quantity, level of expertise, and availability do not 
always match the ever-changing requirements of the intelligence 
mission. You have asked, Mr. Chairman, how our language needs 
have changed over the past 25 years. During the Cold War, when 
the Soviet Union was the only credible threat to vital U.S. 
interests, one could structure a workforce to have a critical 
mass of personnel with needed skills, including Russian 
language, and then smaller ranks of cadres with expertise on 
other regions and critical hot spots.
    Today, as we face much more diverse and complex threats, 
one would ideally want a workforce with skills that balance 
more evenly the requirements of events in Russia, China, the 
Arab world, Iran, Korea, Central Asia, and key countries of 
potential instability in Africa, Latin America, and East Asia. 
As nationalist tendencies continue to increase, we are seeing 
more independent nations come into existence, which places an 
ever greater burden on the Intelligence Community to keep pace 
with expanding language requirements.
    There is no doubt that most managers in the intelligence 
business wish that foreign language capabilities of the 
workforce, whether in technical jobs, overseas positions, or 
analytic jobs, were more robust. At present, CIA, DIA, INR, and 
various other agencies have identified their key shortfalls in 
Central Eurasian, East Asian, and Middle Eastern languages. Of 
course, the Community's need for foreign language skills is not 
limited to non-European languages, even though that is where 
the emphasis is in new hiring. Strong language skills, for 
example, in Spanish and French, which are more readily 
available, can be critical for analyzing selected intelligence 
issues, such as counternarcotics in Latin America or turmoil in 
Africa.
    Let me give some sense of what the shortfalls in foreign 
language capabilities can mean for our ability to serve our 
customers--senior national security decisionmakers:
    The Intelligence Community often lacks the foreign language 
skills necessary to surge during a crisis. For example, Serbo-
Croatian skills in the period of the buildup to the NATO 
bombing of Serbia.
    At times, we obtain large volumes of documents that may be 
critical to make the case about gross human rights abuses by 
someone like Saddam Hussein. But lack of right scale of 
translating capacity makes it hard to provide thorough analysis 
in a timely way for policy decisions.
    And a lack of language skills can limit our analysts' 
insight into a foreign culture, restricting their ability to 
understand and anticipate a deterioration in a particular 
situation. This often diminishes our ability to warn 
policymakers about a potential trouble spot.
    Thousands of technical papers that provide details on 
foreign research and development in scientific or technical 
areas currently go untranslated because we lack the funds and 
personnel to interpret the material. Should this situation 
continue, we could face the possibility of a technological 
surprise.
    So let me address some solutions. The Intelligence 
Community clearly would like to remedy key shortfalls, have a 
higher percentage of its officers with knowledge of at least 
one language in the areas they work on, and have those with 
languages able to maintain their skills at a high level of 
functionality.
    Let me turn to some specifics. Clearly, in recruitment, the 
Community is posting in its vacancy notices and advertisements 
to prospective job applicants an emphasis on foreign language. 
Hiring new officers with the appropriate language capability is 
clearly one important solution to the shortfall, but these 
newcomers to the intelligence business will require other 
training and seasoning before the range of their skills is put 
to full use.
    For the workforce that is already in place, a number of 
important initiatives are underway to mitigate language 
shortfalls and plan for long-term needs across the Intelligence 
Community.
    The Assistant Director of Central Intelligence for Analysis 
and Production, John Gannon, has recently completed a strategic 
investment plan for Intelligence Community analysis. It 
identifies strategies and a series of initiatives to improve 
analysis and production capabilities, including a focus on 
training and career development. Foreign language training will 
be a necessary component of these kinds of activities.
    The Community also has a Foreign Language Executive 
Committee composed of senior intelligence professionals who 
bring a broader vista to our language work and try to make sure 
that foreign language is considered in discussions of policy, 
requirements, planning, and budgeting.
    The Foreign Broadcast Information Service, which translates 
nontechnical foreign media, has made excellent use of foreign 
nationals and contract employees who can be tapped when a 
crisis erupts but may not become permanent employees of the 
U.S. Government. Because FBIS works in the unclassified arena, 
it has enjoyed a greater degree of flexibility than the 
National Security Agency or other agencies who also have a 
great need for linguists and translators but where security 
requirements are very stringent.
    Many agencies, including DIA, CIA, and INR, offer on the 
job language training, and growing numbers of analysts are 
being sent to full-time language training in the course of 
their career. CIA, DIA, and NSA also provide incentive pay for 
both the maintenance and the usage of language on the job.
    There are a lot of projects to develop and use technology, 
including machine translation tools, for foreign language 
because of the problem of the volume of the amount of data that 
has to be processed. But our current judgment is that humans 
must remain a very key part of this endeavor. The trend towards 
the development of machine translation tools is intended to 
assist rather than replace the human language specialist or 
instructor. Still, though this capability is not intended to 
replace human staff, it is increasingly useful in niche areas, 
such as technical publications.
    In conclusion, it is clear that strong and adequate foreign 
language skills are essential to the successful performance of 
our foreign intelligence mission. It is also clear that, 
despite some innovative efforts to address the shortfalls, we 
still have a lot of work to do in this area.
    I would like to thank the Members of the Subcommittee and 
staff for this opportunity to address you. I will be pleased to 
answer any questions.
    Senator Cochran. Thank you very much, Ms. Laipson.
    Ruth Whiteside, we will go to you next.

   STATEMENT OF RUTH WHITESIDE,\1\ DEPUTY DIRECTOR, NATIONAL 
      FOREIGN AFFAIRS TRAINING CENTER, DEPARTMENT OF STATE

    Ms. Whiteside. Thank you. Mr. Chairman, I appreciate very 
much the opportunity to appear before you on behalf of the 
State Department to talk about the importance of the State 
Department's language program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Whiteside appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    American diplomats, indeed, are our first line of 
diplomatic readiness. Good language skills are clearly 
essential to their ability to do their jobs. And we believe 
they are as essential as the planes, tanks, and ships that 
provide the force readiness for our military.
    Recently, in testimony before the Senate Appropriations 
Committee, Secretary Albright noted, ``our Foreign Service, 
Civil Service, and Foreign Service National personnel 
contribute every day to American readiness--through the dangers 
they help contain, the crimes they help prevent, the deals they 
help close, the rights they help protect, and the travelers, 
American citizens, they just plain help.'' Strong language 
skills in our foreign service corps are vital to achieving 
these goals.
    The Foreign Service Institute represents what we believe is 
the finest language teaching capability in our country. We have 
the capacity to provide the necessary language training for the 
U.S. Government international affairs professionals and many of 
their family members.
    FSI's training focuses specifically on the work-related 
requirements of international affairs professionals, and the 
survival needs, the ability to get along in a particular 
country, of those who are unable to receive full-time language 
training.
    At present, as you noted, we teach 62 languages, ranging 
from Albanian to Uzbek. Our largest enrollments continue to 
occur in French, Spanish, Russian, Chinese, and Arabic. And 
interestingly enough, in spite of the shifts that we will talk 
about in a moment, these languages have generally been our five 
since the Foreign Service Institute was founded in 1947.
    For us, language training is very much a growth industry. 
In fiscal year 1999, we delivered more than 800,000 hours of 
language training in Washington, and that was an increase of 
about 22 percent over the previous 2 years. We also enrolled 
about 1,500 individuals from the State Department and a little 
less than 500 individuals from other foreign affairs agencies 
who come to FSI for training.
    In terms of our specialist corps, those who are 
secretaries, communicators, and security officers, we are also 
working hard to increase language training. And our fiscal year 
1999 total was about 45 percent higher than it was 2 years 
before in those categories.
    And another growth industry, we are working very hard, as 
we have space available, to provide language training for 
family members of our foreign service personnel. That training 
has increased by more than 100 percent in the last 2 years.
    We routinely provide individualized language training for 
ambassadors going to post. For example, our Ambassador to 
Tajikistan recently wrote of his ability to address the 
parliament on national day in Tajiki, while his Russian and 
Iranian counterparts were speaking in their own languages. And 
other examples abound. Almost every few weeks we hear from 
another ambassador or a deputy chief of mission who tells us 
about how his language ability played favorably in the local 
press or in the foreign ministry conversation.
    We are also focused very much on language training for our 
newest employees, junior foreign service officers. Here again 
we have in recent years been able, because of modest increases 
in our own intake, to increase the language training we are 
able to give to new junior officers.
    We are also looking at a variety of programs, and have 
implemented a number of programs, to provide incentives to our 
foreign service personnel to continue the languages they have, 
to use the languages they have, and to acquire new languages. 
We recently initiated, for an example, a new language incentive 
program which provides pay incentives for using and maintaining 
languages rather than the prior system which focused primarily 
on simply mastering a language without regard to whether or not 
it was used.
    We are providing more intensive language and area training 
for our mid-level specialists, and enhancing the training in 
languages for all new personnel.
    One of your questions was how our needs have changed over 
the past 20 years. I have indicated that in many ways our core 
language requirements have not changed that much. But we have 
continued, as we have expanded the number of languages we 
offer, to reach a number of areas that were inconceivable to us 
just a few years ago.
    Generally changes in language requirements reflect changes 
in our foreign policy. In the early 1990's, when we opened 
numerous posts in the former Soviet Union and in Eastern 
Europe, we created new language requirements in many of these 
countries. We are now teaching Armenian and Kazakh, Kurdish, 
and Ukrainian, and a number of other languages that are new in 
the last decade or so.
    We are very proud of the language capabilities of our 
foreign service corps and we are proud of the job we do. But 
the reality is that we are often unable to provide these 
individuals with the full course of training they need and the 
studies they need due to the urgent staffing requirements at 
our posts overseas.
    A recent report of the Overseas Presence Advisory Panel on 
the State Department's diplomatic readiness noted that the 
State Department needed to increase the size of the foreign 
service by 10 to 15 percent in order to provide the kind of 
training float that could assure that at any given time our 
officers are able both to acquire the needed language skills 
and cover the critical job requirements overseas. When we are 
not able to leave officers in the full language training, it is 
because there is a critical vacancy overseas that simply must 
be filled.
    If we are not able to address these resource needs, we 
risk, as the panel's report noted, we risk relying on an 
ineffective and hollowed out force to defend America's 
interests. And the consequences of that, as we all recognize, 
would be quite serious.
    I welcome your questions, sir. And, again, I appreciate the 
opportunity and the focus you have brought on this very 
important subject.
    Senator Cochran. Thank you, Ms. Whiteside.
    Christopher Mellon is Deputy Assistant Secretary of Defense 
for Intelligence at the Department of Defense. Mr. Mellon, 
welcome.

    STATEMENT OF CHRISTOPHER K. MELLON,\1\ DEPUTY ASSISTANT 
  SECRETARY OF DEFENSE FOR INTELLIGENCE, DEPARTMENT OF DEFENSE

    Mr. Mellon. Thank you, Mr. Chairman. I would like to thank 
you and your staff both for providing an opportunity to discuss 
a critical national security issue that rarely receives the 
attention it deserves.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mellon appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    The Defense Department's language needs for national 
security are driven by our national and Defense Department 
security strategies. Engagement and enlargement requires the 
United States to deftly engage our foreign partners and 
adversaries to shape the international security environment in 
ways favorable to our interests. Clearly, foreign language 
expertise is critical to our success, critical to the success 
of our national security strategy.
    Our needs have shifted from a singular Cold War focus on 
the former Soviet Union to hot spots across the globe. The 
impact on our language requirements has been profound. For 
example, in the case of the former Soviet Union, which mandated 
the use of Russian across 11 time zones, we are now in a 
position of having to engage with 14 different Republics, most 
of which insist on using their native languages.
    Foreign language capabilities are essential in war-fighting 
today, particularly with our growing emphasis on coalition 
warfare. Foreign language skills and area expertise are 
integral to or directly support every foreign intelligence 
discipline and are essential factors in national security 
readiness, information superiority, and coalition peacekeeping 
or war-fighting missions. Information superiority is the 
paradigm promulgated by the Chairman of the Joint Chiefs of 
Staff and approved by the Secretary of Defense which underpins 
our military strategy for the future and assumes that we will 
have superior information regarding our adversaries, dominant 
battlespace awareness, etc. And foreign language skills and 
effective Intelligence Community is essential to achieving that 
strategy in the future. At any one time, our total needs are 
estimated to be 30,000 civil employees and contract translators 
and interpreters dealing with over 80 different languages.
    Are these needs being met? Clearly, they are not. Combatant 
commands and defense agencies have been reporting significant 
shortfalls in language capabilities. These unmet needs and 
requirements are reflected in commander-in-chief integrated 
priority lists and joint military readiness requirements 
documents.
    We are partially meeting our needs by operating what is 
arguably the world's largest language school, the Defense 
Language Institute Foreign Language Center. We provide basic 
language education to about 3,000 enlisted and officer 
personnel every year. We provide about 13 percent of all post-
secondary instruction in foreign language and are still 
experiencing shortfalls in the less commonly taught and hard to 
learn languages.
    We operate this school because we have learned that the 
high school and college language programs do not currently meet 
our needs in terms of numbers, proficiency level, and specific 
language requirements.
    In response to the shortfalls, we have promulgated a 
strategy for Defense Foreign Language Program which has eight 
different elements that we hope will lead to an optimal level 
of foreign language capability within our workforce, drawn from 
the military active and reserve components as well as our 
civilian employee workforce and contract services. We hope to 
enable that workforce with appropriate technology to provide 
qualified professional service and support across DOD component 
organization lines and the mission spectrum. The Joint 
Requirements Oversight Council has earlier this month given 
their support to the strategy and the Defense Planning Guidance 
for 2002-2007 directing our efforts to further develop and 
provide the policy and program guidance required for 
implementation.
    Mr. Chairman, that concludes my opening statement. I have 
tried to condense my remarks. I hope the prepared statement is 
fully responsive to the questions that you asked.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much, Mr. Mellon.
    David Alba is Assistant Director of the Investigative 
Services Division of the Federal Bureau of Investigation.
    Mr. Alba.

      STATEMENT OF DAVID E. ALBA,\1\ ASSISTANT DIRECTOR, 
      INVESTIGATIVE SERVICES DIVISION, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Alba. Good morning, Mr. Chairman. I appreciate the 
opportunity to talk to you about the FBI's foreign language 
program. Among other things, I am responsible for the FBI's 
foreign language program itself. I am also fluent in Spanish 
and can speak first-hand of the value of foreign language 
expertise in law enforcement as well as in national security 
investigations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alba appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    The 1990 Census figures show that almost 14 percent, or 
approximately 30 million people, in the United States speak a 
foreign language at home. Many of these people will be victims 
or subjects or witnesses in our investigations.
    When you look at the FBI's major initiatives, such as 
foreign counterintelligence, international terrorism, 
international drug investigations, and multinational white 
collar crime, foreign language ability becomes even more 
critical. The FBI looks primarily at three different sources 
for its foreign language support. That is the special agents 
themselves, language specialists who are full-time employees, 
and contract linguists. Fifteen years ago, the language needs 
of the FBI were predictable, but today things have changed 
dramatically. Spanish continues to be one of our seven critical 
language needs. The other six are Arabic, Chinese, Japanese, 
Korean, Farsi, and Vietnamese. The FBI never has enough agents 
or linguists who speak these critical languages.
    A few times a year, the FBI receives a request for a 
language we have never heard of. These include Twi, Avar, and 
Gypsy. Sometimes it is just a challenge identifying the 
language, but it is more difficult to find somebody who can 
translate a tape or a document from that language into English, 
often under pressure of short deadlines.
    Court authorized electronic surveillance is highly 
effective and often involves a foreign language. Criminals 
usually use coded language to cover their activity and this 
complicates the issue even further. In 1993, you may remember 
the plot to bomb several New York landmarks by radical 
followers of an Egyptian sheik. The code word used for the 
bombs was the Arabic word ``Hadduta,'' which literally means a 
child's bedtime story when translated from Arabic. It sounded 
innocent enough, but it became obvious that something was wrong 
when the suspects talked about ``preparing four Hadduta,'' 
``renting a warehouse for the Hadduta,'' and ``buying oil and 
fertilizer for the Haddutas.''
    We know that not all people who speak a foreign language 
are able to translate, or even fewer are able to interpret. 
These are very difficult and separate skills. Last year, the 
FBI language specialists and contract linguists translated over 
a million pages of documents and countless hours of audio 
material. With the growing demand for certain languages, the 
work continues to back up. When we are talking about 
unaddressed work coming from critical national security-related 
investigations, the implications are very sobering.
    One problem we have is being able to keep some of our 
contract linguists busy enough so they won't be looking for 
other jobs. In some languages the volume of work never ends, 
but in others the amount of work may be intensive only for a 
few months. And when we need the language again, often after a 
period of months or even years, our contract linguists have 
found other jobs, and now we must start recruiting, testing, 
and processing all over again, which is very time consuming.
    The FBI is now working with other Department of Justice 
components to develop common language proficiency and security 
standards for linguists who will have access to law enforcement 
sensitive information. That problem does not necessarily exist 
in the Intelligence Community but it does exist in law 
enforcement. The project is to create a database accessible to 
law enforcement components that contain all known linguistic 
resources by specialty--for example, an interpreter, 
translator, or monitor, and also give language skill levels 
and, an important thing for us, security clearances.
    We are always looking for new and innovative ways to find 
linguists and process foreign languages. We have a very active 
foreign language training program. Another source of support, 
something that has been mentioned already today, is machine 
translation. I have been told that in some languages it may be 
as accurate as 80 percent, but still you need a linguist to 
prepare it. So in essence, what it does, especially on 
documents, is kind of like a document triage. It does help.
    The language requirements have multiplied several times 
over. For example, agents we have working on the border now who 
do not speak Spanish cannot take complaints in Spanish, 
interview victims or witnesses, nor can they develop informants 
in Spanish. Because of the influx of Spanish-speaking and other 
immigrants into the United States, this situation is happening 
not only on the border but in the rest of the country.
    I appreciate the opportunity to brief the Subcommittee on 
things that are critical to FBI operations. I will be happy to 
answer any questions.
    Senator Cochran. Thank you very much.
    I appreciate so much the overview that we have received 
from this panel of witnesses. It is, I think, an excellent way 
to start our hearings to equip us with a knowledge-base to make 
some determinations about what policy changes or programmatic 
changes need to be made in the Federal Government to help meet 
the needs that we have for those who can speak foreign 
languages and at the level of proficiency that we need 
throughout our government.
    One thing that occurred to me while Ms. Laipson was 
testifying was whether or not we have enough resources in terms 
of appropriated funds being provided to the Central 
Intelligence Agency for its language training needs. I also 
serve on the Appropriations Committee so it immediately 
occurred to me. You talked about the machine translation tools 
that are used now. These cost money I know. People who are 
contract linguists or instructors who actually work directly 
for the Federal Government have to be paid. What is the cost 
impact on your budget, and are those costs being met at the 
current levels of funding?
    Ms. Laipson. All of the initiatives that I mentioned are 
currently funded. And in many cases, I think some of these 
projects are actually quite modest in their cost as compared to 
much larger systems and programs.
    But in terms of any upcoming needs, I expect that you will 
see that in the build for the budget for 2002 and it will be 
discussed at the kind of program detail level with our 
oversight committee. At the present, the initiatives that I did 
mention are not lacking for the startup funds that are needed.
    Senator Cochran. Does your agency, because it is involved 
in intelligence-gathering and classified documents and 
activities that are secret and not available for general public 
knowledge, do you have special problems in dealing with 
language skills and getting access to those who can translate 
unusual languages and the like?
    Ms. Laipson. I cannot speak for all of the agencies, but my 
impression is that some of our requirements are similar to 
those at the State Department and the Defense Department, where 
for many positions a security clearance is required and, 
clearly, that takes time. So sometimes a need emerges and we 
may identify people with those language skills that have not 
worked in government. The time it takes to get them into the 
system is certainly affected by the security requirements, but 
that is not unique to the Intelligence Community.
    Senator Cochran. Is there a government-wide agency or 
resource available to the FBI, the CIA, State Department, or 
DOD for emergency access if you need something addressed on an 
emergency basis, a translation of an unusual language that Mr. 
Alba brought up, for example? Can anybody access that resource, 
or does each department have its own place to go for that kind 
of thing?
    Ms. Laipson. Well, our Intelligence Community, which does 
include the FBI, is now working on making sure that there is a 
database that cross-references language capabilities in the 
different agencies. So if an acute need were to arise for one 
agency, they might be able to either borrow or share the 
available translating capabilities of another agency. I cannot 
say that it is up and running in all of its potential capacity, 
but people are thinking exactly along those lines of trying to 
pool the available resources and making sure other agencies are 
informed of where the pockets of language capability are across 
the system.
    Senator Cochran. When we were hearing about the fact that 
we have got a crisis and the problem is getting worse and not 
better in terms of the capability of staffing positions with 
people who are qualified in foreign languages, is that 
oversold, or is that really an accurate description of the 
situation, in your opinion? Is it overstated, Ms. Laipson?
    Ms. Laipson. Overstated?
    Senator Cochran. In terms of the CIA's experience, whether 
we have a crisis or not, whether the problem is getting worse 
or better. I am hearing from Ms. Whiteside that it sounds like 
we are doing a very good job of helping deal with the need for 
language training in the Federal Government. What is your 
impression?
    Ms. Laipson. I think it is hard to generalize. Clearly, if 
you took the Somalia incident or Serbia, you could come up with 
discreet periods where for a period of months it could 
accurately be described as a crisis and the lack of ability to 
get on board enough of the linguists and translators that were 
needed for a discreet operation or a discreet period of time. I 
think if we look at it across the board, at least in terms of 
the intelligence mission, I would describe it as something less 
than a crisis. It is a chronic need, it is a chronic desire to 
be playing at a more robust level, but I think that I would 
reserve the word crisis for more narrow specific episodes that 
were time-limited.
    Senator Cochran. I know that you have a previous commitment 
and you need to keep that commitment, and I am sensitive to 
that. So if you need to go now, you are free to go. We 
appreciate your being here at the hearing. Thank you very much.
    Ms. Laipson. Thank you very much, Mr. Chairman.
    Senator Cochran. Ms. Whiteside, you mentioned that training 
of foreign language skills in the State Department is actually 
increasing, not declining. You are training more people, you 
are it seems to me responding to the need for greater 
proficiency in foreign languages in the State Department. Is 
that an accurate summation or reaction to your testimony 
generally?
    Ms. Whiteside. I think, if I may, sir, I would make the 
distinction between--in the first place, yes. In the last 
couple of years we have been able to begin to reverse a pretty 
long decline in our ability to expand language training. We 
believe we have a lot of capacity for language training at the 
Foreign Service Institute.
    Our frustration in the State Department, the resource issue 
is in many cases the people to train. We are still sending 
officers overseas with less training than we would like them to 
have. We are giving them in many cases more training than they 
have had before, but we are not meeting what we would believe 
is our national security need for the training they really 
need. And that gap is the critical decisions that have to be 
made between leaving a critical job open overseas or sending an 
officer who may not have had the opportunity to get the full 
capacity of language training they need to operate at the top 
level.
    Senator Cochran. One other impression I had of your 
testimony was that we could actually help this problem by 
providing more funds for staff needs generally at the State 
Department rather than trying to target funds to a foreign 
language training system. Is that right? You were talking about 
the fact that you had to rush people over into different posts 
all over the country and you had to take them out of language 
training to get them there.
    Ms. Whiteside. Yes, sir.
    Senator Cochran. That that was a bigger problem than----
    Ms. Whiteside. I would never want to say, sir, that the 
Foreign Service Institute does not need and could not use more 
money. But I absolutely agree that the primary need at the 
State Department, we are a people agency and diplomacy means 
putting our people on the ground, and our critical need is to 
have a larger reserve of people so that we can meet those needs 
and meet the training requirements that those people have. So I 
would put increasing the staffing needs of the State 
Department, for me, that would be at the top of the list.
    Senator Cochran. It occurs to me, just from my own personal 
experience, that at some of our embassies and offices around 
the world we have spent a lot of money recently on security and 
protection and trying to respond to the terrorist threats and 
the reality of terrorist incidents that we have confronted. Is 
this draining funds, do you think, that could be used for 
staffing and language training and other activities? Is this 
one of the problems that we have right now, the expense that we 
are having to bear to deal with the threats of terrorist 
activities?
    Ms. Whiteside. Sir, I believe dealing with those threats to 
the security of our own employees and American citizens 
overseas is a top priority of the State Department and one that 
Secretary Albright has given a great deal of attention to. So 
for me, the issue is not could we move money from the security 
of our embassies to the training of our people, the issue is we 
need all of those things. We need well-trained people, and we 
need to assure them that when they go overseas they will be as 
safe as they can possibly be.
    I would just, if I might, make one other comment on the 
security side. I would emphasize the importance of languages to 
our security profile. As our officers, our security officers, 
our administrative officers have the ability to deal with local 
police in the local language, to deal with local intelligence 
counterparts and counterterrorism counterparts in their 
languages, they are that much more capable of assuring that we 
are addressing the security issues than they are when their 
language skills are not at that top level.
    Senator Cochran. Mr. Mellon, you talked about the need to 
start early in terms of language training, that we need to do a 
better job in our schools, that you are not getting the kind of 
trained person coming out of high school and college with the 
language capacity that the Nation really needs at the 
Department of Defense. I think you are absolutely right about 
that. But it seems to me that schools are doing a better job 
than they used to. It was unusual when I was going to school 
for a school in my State to have foreign language courses. Now, 
more and more schools do have those courses and students are 
learning foreign languages at earlier ages. My daughter, for 
example, started out, I think, in kindergarten, certainly the 
first grade learning French. There was a French component in 
all of her classes all the way through to the 12th grade. She 
ended up with a major in French and she sounds fluent to me. I 
think she is. I can't understand her. [Laughter.]
    But aren't we doing better on that though than we used to?
    Mr. Mellon. Yes, sir, I think we probably are. My deputy, 
one of his children goes to a magnet school in Fairfax and he 
is in an emersion program where all of his courses are in 
German. And as near as I can tell, he is fluent in German. I am 
not in a position to assess that; we have not administered the 
DFLP proficiency test to him yet. But that is very encouraging 
and very positive.
    I think one of the key points in considering our 
requirements are and what is at issue here is that in this 
changing world environment the levels of language expertise 
that were adequate many times in years past do not cut it 
today. When we are talking about counterproliferation and 
counterterrorism and counternarcotics, it requires a degree of 
real fluency in many cases to engage with these people or 
understand documents, interpret them, translate other 
information. So when it was a more static situation and you had 
more rigorous sorts of conventional military units, I am 
talking from a DOD standpoint now, reporting in standardized 
sorts of ways about what they were doing, you could teach 
people key words and get a better grip and deal with a more 
narrow, limited set of issues. This is a much more challenging 
environment.
    So I think some of those trends are extremely positive and 
we are hopeful that in the future there will be more Americans 
with these kind of higher degrees of expertise to support our 
national strategy.
    Senator Cochran. Along with advances in better education, I 
think we have also realized that we have better technology and 
new computer technology and related technology. Ms. Laipson 
talked about machine translation tools. Do you use these as 
well, and do you have the funds that are necessary in order to 
acquire these tools to help you do a better job?
    Mr. Mellon. Yes, sir, we invest fairly considerable 
resources through the Defense Advanced Research Projects Agency 
and other agencies in various kinds of machine translation 
capabilities. They are a partial answer to our needs and to our 
requirements. We are reviewing right now some internal 
proposals for increased funding for language which we want to 
put forward and advocate in our internal process.
    Some of the examples, probably the clearest examples of 
Defense Department language skills being brought to bear, maybe 
some of the most salient ones, are ones that also show the 
limits of machine translation. For example, during the conflict 
in Panama, there were a number of instances where violence was 
averted because we had individuals with foreign language skills 
who could talk to a commander who was in a garrison or an 
individual that was under fire as we were approaching the kind 
of final moments where it was either you guys surrender or we 
are going to have to open fire sort of situation, and they were 
able to reconcile the situation without violence. Similar sorts 
of things happened in the Persian Gulf. In fact, the broad 
spectrum of that coalition with nations from all over the world 
placed extraordinary demands on the central command for 
language requirements.
    Again, the automated tools can help us in those situations, 
but there is no substitute for having people who can talk face 
to face and engage.
    Senator Cochran. Mr. Alba, when you were talking about some 
of the real life experiences that law enforcement personnel 
have at the FBI, I could not help but remember sitting in on a 
class at the University of Madrid one time, I just happened to 
be there, and it was a class where they taught colloquial 
Spanish, as a matter of fact. And I remember a phrase that the 
instructor was trying to explain, ``Sabelo todo,'' which means 
somebody who is a know-it-all. I loved that. I have remembered 
it ever since 1963, or whenever that was. [Laughter.]
    And I think it sometimes, but I try not to ever say it to 
anybody. But these are examples.
    I wonder if in the language training courses that are 
available for FBI agents there is an emphasis on real-life 
situations that you run into and phrases that are used. You 
mentioned the World Trade Center. That was fascinating. Is 
there a special discipline that equips agents with their 
understanding of colloquial phrases that they are likely to run 
into in their line of work that you might not run into if you 
were in another environment?
    Mr. Alba. That usually comes from experience. When you are 
trying to learn a language, it is tough enough just to learn 
how to say good morning, good bye and remember how that goes. 
But when it comes to picking up the subtleties of the language 
and codes like that, we have made efforts at times to put 
together a glossary of those terms. But they change quite a bit 
because people put their own terms to it. It is very difficult 
to be able to teach that to somebody else. They usually have to 
have it from experience.
    It becomes very important to have that in cases where life 
is at stake. If there is an extortion or a hostage-taking 
situation, we almost need to be able to get the correct 
translation as accurately as you can with some of these 
subtleties.
    Senator Cochran. I asked earlier about the centralized 
availability of a resource for emergency translation. Is there 
a reliance by the FBI on such a database that we heard 
mentioned, or do you find that it is more appropriate that you 
have your own in-house capability for this kind of thing, the 
unusual languages that crop up occasionally? You mentioned 
three and I had never heard of any of the three. So I am 
impressed that we even know what those are.
    Mr. Alba. Originally, I guess we didn't know what they 
were, but we found some help and got that. We rely on some of 
the more common languages from Defense Department when we do 
not have enough personnel. Our effort is going to be to develop 
that. But on these other languages, now that we know they 
exist, we can make arrangements to have them available or make 
arrangements to develop resources. But for those that we do not 
know yet, we can only try to predict. But that can also be very 
difficult as to how do you go about developing and preparing 
for that? Nevertheless, I think it is somewhat necessary.
    Senator Cochran. Are there any particular obstacles to 
hiring linguists? Are we hard-pressed to compete with the 
private sector, is this a problem? Is the pay better in other 
areas of our society than teaching languages to government 
employees? Is that something you can answer? This is really for 
everybody because it does cover all government agencies. What 
is your experience?
    Mr. Alba. The same problem we have in the government is the 
same problem the private sector is experiencing. As 
globalization and mobility and communications are improving, 
they are having the same difficulty. And, of course, quite 
often they can pay more money than we can, so that definitely 
becomes a problem. Sometimes people may come into the 
government and get training and then they go out and we lose 
them to the private sector.
    Senator Cochran. Yes.
    Mr. Mellon, what is your experience?
    Mr. Mellon. Yes, sir, it is a problem. It is more acute for 
some languages than it is for others. Individuals who have rare 
foreign language skills, say in Chinese or Japanese where there 
is an expanding economy and expanding trade, lots of corporate 
investment and so forth, are more likely to get offers to, hey, 
come work for my corporation than somebody who works in a 
region that is not experiencing that kind of growth and so 
forth. So we certainly do encounter that. It bothers me to 
generalize. I would say a lot of it depends on the individual 
language.
    Senator Cochran. Ms. Whiteside.
    Ms. Whiteside. I would agree. There are two kinds of 
issues. One is finding teachers. It is not the question of 
losing teachers to the private sector, it is finding them at 
all. Our experience sometimes is in 62 languages it is very 
difficult simply to find a teacher. And then the pay is another 
issue. It is also a problem though in this kind of economy 
finding specific languages, some of the ones mentioned, 
Chinese, for an example, where there is a great demand for 
strong Chinese linguists and the government salary scales are 
not always competitive.
    Senator Cochran. Ms. Laipson.
    Ms. Laipson. I think when we are looking at people who are 
pure translators, looking for that very technical skill, we are 
clearly competing with the private sector that may need the 
same skills. But it strikes me that we are looking for a mix of 
skills in which the sense of mission makes government service 
different than non-government work. So sometimes we are 
appealing to people who do have a sense of excitement about 
working, using a foreign language and applying it in a national 
security setting where they feel that they are contributing to 
national decisionmaking. I think that what we are looking for 
is people that see language as part of a cluster of skills, and 
that therefore working in the government allows them to use all 
of their skills, not just the language skill.
    Senator Cochran. As we conclude the hearing, I am curious 
to know what each of you would think we should consider as a 
program change or a resource emphasis to help meet the growing 
need that we have in all of our defense-related and security 
agencies for language skills, language training. Does anything 
occur to you specifically that you could recommend if you were 
up here proposing a new piece of legislation or a new program 
or funding with greater emphasis? What would you do?
    Ms. Laipson.
    Ms. Laipson. It seems to me that this hearing, in and of 
itself, has been enormously useful. I think it helps remind 
people and raise people's consciousness of the importance of 
this issue. Obviously, I think individual agencies have 
initiatives underway or have wanted to do initiatives that 
might require some more support and funding. Clearly, retaining 
the workforce that we have and recognizing the skills that they 
have is part of the issue. One of the issue that you are 
planning to address in subsequent hearings, making sure that 
language training is available for young people so that when 
they enter their professional service they are bringing the 
skills that the government needs, is a long-term strategy that 
is very much warranted. Obviously for the people who are 
already in-house, some of these incentive pay schemes, etc., I 
think are important to help us retain the workforce that we 
have.
    Senator Cochran. Thank you very much.
    Ms. Whiteside.
    Ms. Whiteside. I think bringing to a broader consciousness 
in our country the critical nature of language issues in the 
world we live. I like what Mr. Mellon said in terms of even 
though we are all doing more, and we are very proud of what we 
are doing, the world is so much more complex that the target is 
always moving. I think the emphasis on learning languages at 
younger ages is always good. Our own experts say that the best 
predictor of success in learning a language is to have learned 
a language. And so when people come to us and we need to teach 
them a very difficult language that they are not likely to have 
learned in high school or college, if they have learned 
Spanish, French, other world languages earlier on, they have a 
sense of what learning language is all about and they are much 
better students. So I think the emphasis on language training 
across the board is critical for all the government. For the 
State Department, I think our interest continues to be to have 
the people to train and still meet our requirements.
    Senator Cochran. Thank you.
    Mr. Mellon.
    Mr. Mellon. Yes, sir. I hope and expect that you will 
receive a budget request from the Defense Department that will 
ask for your support for increased funding for language 
programs within the State Department. More broadly, I would 
strongly agree that we would welcome programs that will help to 
produce more American citizens with high degrees of language 
proficiency. That is far beyond my ken in terms of education 
policy, but obviously we would benefit enormously. I think that 
some of the latest research suggests that in fact there are 
organic reasons why it is very difficult later in life to adopt 
and achieve a high degree of proficiency in a foreign language. 
I happen to have had a need to review some of this information 
recently and it appears that there is a certain plasticity in 
the way that we are wired and in our neurons and so forth at an 
early age that starts to drop off at about age seven or eight. 
[Laughter.]
    Early exposure actually helps the way your neuro 
architecture sets up. In any event, early in life that kind of 
exposure to education and training helps to produce the kind of 
people that we think we are going to need, which is more and 
more fluency to deal with these complex issues like 
counterproliferation and counternarcotics and terrorism and so 
forth. So we agree that raising the awareness is a very helpful 
thing to do. And we are going to work within our budget and 
activities to try to place increased emphasis on this.
    Senator Cochran. Thank you very much.
    Mr. Alba.
    Mr. Alba. I guess I can repeat what he said. If you see a 
budget request from us to increase funding, I hope you keep in 
mind what we discussed today.
    Senator Cochran. I will.
    Mr. Alba. And I know you have other needs, too.
    Senator Cochran. Yes. We will.
    Mr. Alba. But it is interesting, as we have foreign 
officials coming in from different countries, how many of them 
speak English. It is somewhat embarrassing at times. But 
fortunately we do have a few agents who can speak their native 
languages. I have made it a point to tell our people that I am 
trying to learn another language at least, and that I will pick 
it up from there, to encourage them to do the same. I think it 
will make a better world to live in. It gives us insight into 
different cultures that we now have here in the United States, 
and I think it is very important. I appreciate the emphasis you 
have focused on it.
    Senator Cochran. Thank you very much. I think this has been 
an excellent hearing, a wonderful way to start our effort to 
examine and understand more fully what the problem is and what 
the challenges are, and then to take a look at what some of the 
options are that we should explore and emphasize in terms of 
Federal policies and programs and funding levels to help 
improve the situation. I appreciate so much your all being 
here.
    We have some materials that we are going to put in the 
record, including experiences that have indicated how serious a 
challenge it is to understand foreign languages and the 
national security context, our experiences in Bosnia, in 
Kosovo, other countries where we have had experiences that 
illustrate this importance to our national security effort. So 
we will put those materials in the record to lay a groundwork 
for our additional inquiry that we will make later on.\1\
---------------------------------------------------------------------------
    \1\ The referenced materials appears in the Appendix on page 110-
127.
---------------------------------------------------------------------------
    We will schedule another hearing. I do not think we 
actually have it scheduled. Oh, we do. September 19. And do we 
have a title for it, to kind of jazz it up?
    Part II? That's the title? OK. [Laughter.]
    Until then, the Subcommittee will stand in recess.
    [Whereupon, at 12:01 p.m., the Subcommittee recessed, to 
reconvene on Tuesday, September 19, 2000.]


THE STATE OF FOREIGN LANGUAGE CAPABILITIES IN NATIONAL SECURITY AND THE 
                           FEDERAL GOVERNMENT

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2000


                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                    of the Committee on Government Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to recess, at 10:05 a.m. in 
room 342, Senate Dirksen Building, Hon. Thad Cochran, Chairman 
of the Subcommittee, presiding.
    Present: Senator Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

     Senator Cochran. The hearing will come to order. We 
continue our hearings on the state of foreign language 
capabilities in national security and the Federal Government.
    At our first hearing last week we heard from 
representatives of the State Department, the Department of 
Defense, CIA, and the FBI about the needs of those departments 
and agencies for personnel who are proficient in foreign 
languages.
    We heard about some of the shortcomings and some of the 
ways they are working to help meet the needs for personnel in 
these areas and the relationship that has to our national 
security interests.
    One of the questions I asked of the witnesses last week was 
what new Federal policy or legislation would you recommend to 
improve our preparedness in foreign languages. Each witness 
mentioned the importance of language instruction in elementary 
and secondary schools.
    One panel member said the best indicator of how well a 
person will learn, how quickly they will learn and how 
efficiently they will learn a foreign language is whether or 
not they have already learned one at some point in their 
education, whether they attended school or were proficient in a 
second language.
    The fact of the matter is that there are obviously needs 
for our education system to respond in this area. Today, we 
will examine the trends in foreign language education.
    We hope to be able to learn what the Federal Government is 
doing or should be doing to ensure that our national security 
needs, which are dependent upon language skills, are being met.
    We are very pleased to have as our first witness this 
morning the Hon. Richard W. Riley, who is Secretary of the 
Department of Education. He is accompanied by Scott Fleming, 
Assistant Secretary for Legislative Affairs.
    We have a second panel which will include Dr. Robert 
Slater, Director of the National Security Education Program; 
Dr. Dan Davidson, President of the American Councils for 
International Education; Martha Abbott who is Foreign Language 
Coordinator, Fairfax County Public Schools here in Fairfax, 
Virginia and who is also a member of the Board of the Joint 
National Committee on Languages; and Dr. Frances Coleman, who 
is an Eisenhower Fellow and a teacher and technology 
coordinator for Ackerman High School and Weir Attendance Center 
in Choctaw County, Mississippi.
    Secretary Riley, we appreciate very much your attendance. 
We hope you will speak to this issue and we will have an 
opportunity to ask you some questions.
    We know you have a tight schedule. As soon as my questions 
and your answers are completed, you can leave. But thank you so 
much for coming here.
    Thank you also for your visit. We surely appreciated your 
coming to Mississippi. It was several months ago now, I guess. 
You picked a hot time of year to go down to Mississippi. We 
appreciate your visit to our State and your assistance in some 
of our programs down there has been very welcomed. We thank you 
for that.
    You may proceed.

STATEMENT OF HON. RICHARD W. RILEY,\1\ SECRETARY OF EDUCATION, 
     ACCOMPANIED BY SCOTT FLEMING, ASSISTANT SECRETARY FOR 
                      LEGISLATIVE AFFAIRS

    Secretary Riley. Thank you so much, Mr. Chairman. It is a 
real honor for me to be here and talk about the importance of 
foreign language instruction and how language knowledge can 
really affect our effective role in world affairs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Riley appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    This might be my last testimony before a Subcommittee of 
Congress. It is a pleasure to be before you, if that is true.
    The benefits of helping Americans acquire a second or third 
language are really significant. Strengthening this one area, 
foreign language instruction, helps to build a better work 
force, to improve our national security and diplomacy and, as 
research shows, to lift other areas of education as well.
    That is why I am convinced that we should do everything we 
can to ensure that we have high quality foreign language 
instruction in America's schools.
    Now, let me focus on three benefits of promoting what I 
call ``biliteracy.'' The first benefit is a better workforce. 
Today, more of America's countries do business in other 
countries. More of our citizens regularly speak a language 
other than English in their home.
    We should welcome these changes so long as learning English 
is our first priority. But knowing an additional language can 
make our Nation stronger. We should make sure that those who 
live in the United States and speak more than one language are 
valued. We should think of a second language as an asset for a 
student, not a barrier.
    Now, let me be clear though, knowing a second language is 
not a substitute for mastering English. But with their language 
skills, people who are biliterate may enjoy greater 
opportunities in our increasingly diverse Nation and command a 
greater salary in the marketplace.
    The second benefit is stronger national security, a 
subject, you have been, of course, very interested in. Helping 
young people learn foreign languages can, I think, even make 
our Nation safer.
    If more Americans understand the language and the culture 
of others, I believe that we will be more likely to avoid 
conflicts and reach across cultural difference to form 
international friendships and partnerships.
    There are also clear advantages in having members of our 
armed services who are biliterate.
    The third benefit is improved academic achievement for our 
students. We have strong evidence today that studying a foreign 
language has a ripple effect, helping to improve student 
performance in other subjects.
    The European Union has a goal for their students to learn 
three languages and surely we can help students remain 
competitive by learning English and at least one more language.
    Here is what research says: Children who have studied a 
foreign language in elementary school score higher on 
standardized tests in reading, language arts and mathematics.
    They also show greater cognitive development in areas such 
as mental flexibility, creativity, tolerance and higher order 
thinking skills, four qualities that are very desirable in 
today's workplace.
    So far, our Nation has not done enough to help our children 
learn second and third languages. The United States lags behind 
many other developed countries in providing foreign language 
study to elementary and secondary school students.
    Research suggests that students acquire foreign languages 
more easily when instruction begins at early grades. Despite 
this evidence, few elementary schools in the United States 
offer foreign language instruction.
    Increasing our efforts in two areas will help us catch up 
with other nations in foreign language instruction and provide 
the excellent, complete education that our children deserve.
    First of all, we recently have promoted a number of changes 
at the Department of Education to improve foreign language 
instruction in the United States. Our proposal to 
reauthorization the Elementary and Secondary Act (ESEA), would 
set a national goal ``that 25 percent of all public elementary 
schools offer high quality, comprehensive foreign language 
programs by 2005 and that 40 percent offer such programs by 
2010.''
    Our ESEA reauthorization proposals includes provisions that 
would help students to make a smooth transition in their 
foreign language studies as they advance from elementary school 
to middle and on to high school.
    Another program is that when America's elementary schools 
offer foreign language instruction, typically it is an 
introductory exposure to the language. So our ESEA 
reauthorization proposal also focuses on ensuring that the 
elementary school foreign language instruction is more 
challenging and more meaningful.
    Our fiscal year 2001 budget request includes $14 million 
for Foreign Language Assistance, which is $6 million above the 
fiscal year 2000 level. The increase reflects the growing 
important of foreign language skills, which I have outlined.
    The second area in which we can increase our effort and 
improve foreign language instruction is what are called ``dual 
language'' programs. These differ from regular foreign language 
instruction in that students are immersed in English and a 
second language, rather than being taught the second language 
as a separate subject.
    In dual language programs, approximately equal numbers of 
English-speaking and non-English speaking students participate 
in classrooms, with every student challenged to meet high 
academic standards for each subject in both languages.
    Again, this approach is backed by research showing that 
students in high quality dual-language programs have higher 
achievement than their peers who are not enrolled in a language 
program.
    I have called on educators and community leaders urging 
them to create more dual language schools. Right now there are 
about 260 in the United States. I would like to see 1,000 dual 
language schools by 2005.
    To help meet this goal, the Department announced on 
September 1st that we would be setting aside $20 million 
through the Bilingual Education program for two special 
competitions for dual language projects.
    I am pleased that the budget plan that the President 
submitted to Congress for fiscal year 2001 would increase 
funding for bilingual education including dual immersion 
programs, to $296 million and increase our investment in 
foreign language education by 75 percent.
    We will continue to do everything we can to ensure that 
bilingual programs make a positive difference in helping 
students learn English and achieve academically.
    While my formal testimony focuses specifically on the work 
we have undertaken to enhance foreign language skills at the K-
12 level, which is what you indicated was something you were 
very interested in, I would be remiss to not briefly discuss 
important work supported by the Department in the post-
secondary area.
    Under the International Education and Foreign Language 
Studies Program, the Department seeks to strengthen the 
capability and performance of American education in foreign 
language and international studies. These programs originated 
in the National Defense Education Act of 1958 and reflect the 
need to address high priorities critical to international 
security and to the conduct of business in the world economy.
    Through the domestic component of the International 
Education Foreign Language Studies Program, we provide 
resources to institutions for higher education to strengthen 
instruction programs, to fund fellowships, to focus on 
effective teaching strategies, and assist in curriculum 
development.
    Studies show that the Federal assistance is most important 
in otherwise neglected languages. A lot of them I could 
mention, Swahili, for example, Indonesian, Serbo-Croatian, 
those kinds of languages. You really have to have some kind of 
special effort to make sure that this kind of knowledge is 
obtained.
    Large proportions of students in those languages are 
supported by Federal programs. Similarly, the Department 
assists in overseas training of U.S. citizens in these areas 
through faculty research abroad, group training abroad, 
doctorial dissertation work abroad and special bilateral 
projects with foreign countries.
    I am so pleased that the appropriations process appears 
headed toward meeting our budget request and possibly 
surpassing our request for these very important domestic 
programs.
    I suspect the Chairman might be somewhat responsible for 
those favorable results.
    I would like to emphasize that President Clinton and his 
staff have been leaders in the effort to improve foreign 
language acquisition.
    At the beginning of the administration we made competency 
in foreign languages part of the Goals 2000 Education America 
Act. We added two things, I think, to what the governors had in 
theirs. One was foreign languages and the other was arts. Then 
I think later civics was added.
    In 1993, we provided funding to four national language 
organizations to develop national standards in foreign 
language. These standards were issued in 1996. They have given 
us a strong foundation for improving foreign language 
acquisition.
    In addition, on April 19 of this year, the White House 
released a memorandum on international education policy, which 
directs our Department of Education and other agencies to work 
to improve international education.
    The memorandum specifically addresses the need to improve 
foreign language learning, including efforts to achieve 
biliteracy and to enhance the Nation's capacity to produce 
foreign language experts.
    Technology and demographics are changing the world and 
changing the United States. As public officials, I think we 
should adapt our education policies to reflect these changes. 
By working together, we can encourage better foreign language 
instruction in our Nation's schools.
    If we do that, we will strengthen our workforce, make our 
Nation more secure in the world, and elevate the level of 
education for America's children.
    Thank you, Mr. Chairman. I will be happy to respond.
    Senator Cochran. Thank you, Mr. Secretary. I compliment you 
for supporting the increases in funding for foreign language 
training and education.
    I am also pleased to hear about your support for college 
level and postgraduate foreign language training as well, at 
colleges and universities in our country.
    I noticed from my notes, preparing for this hearing, that 
over the last 4 years the Appropriations Committee in the 
Senate, with the support of the House committee as well, was 
successful in increasing funding for the Foreign Language 
Assistance Program, which is an elementary and secondary level 
program, from $5 million to $8 million.
    These were not included in the administration's budget, but 
this year the fiscal year 2001 Labor, Health and Human Services 
Bill will include $14 million--that is our anticipation--for 
this program.
    We have introduced, too--to try to help support these 
increases--a Foreign Language Education Improvement Act 
Amendment of 1999 which increases the funding authorization and 
puts special emphasis on schools serving disadvantaged 
students.
    I am curious to know if the Department is using Title I or 
any other program to provide special support for those schools 
with high concentrations of disadvantaged students in providing 
foreign language classes.
    Secretary Riley. Well, under this Foreign Language 
Assistance Program there is no specific emphasis on low-income 
students. However, most of the recipients are Title I schools. 
So, you do see a strong connection between disadvantaged areas 
and these programs and the same is true with bilingual 
education programs.
    So, the answer, I think, Mr. Chairman is yes, it ends up 
going in that direction, but certainly if certain language was 
in there it would make it very clear. But Title I is where the 
Federal Government, of course, is involved primarily, and that 
is where most of these funds go.
    Title I, by the way, has gotten very flexible. I think you 
are indicating that, too. We are very free and now we have FLEX 
in most States and we have the potential of getting it in all 
50 States. Of course, you can have waivers on Title I use of 
money if it is something that a State, a school district is 
particularly interested in.
    So, we do have a lot of flexibility in Title I now and we 
are very free about giving waivers where local people have 
emphasized a particular thing and certainly this would be very 
important.
    Senator Cochran. My personal recollection, growing up in 
Mississippi as I did in a small rural community school in the 
outskirts of town--that meant out in the country, but we called 
it ``the outskirts.'' It sounded better. But we didn't have 
teachers who just taught foreign languages.
    The teachers who taught foreign languages in our schools 
basically stayed one chapter ahead of us in the book. They may 
have taken a course or two in college, and I am not saying 
their instruction was not good. It was very good, I thought. 
That was my experience. I am talking about Latin and Spanish. 
They were both taught in my high school, even though it was a 
pretty small school.
    Is that a problem that cuts across geography and regional 
lines, an inadequate number of trained professionals who teach 
foreign languages and how do we encourage more who are 
proficient in foreign languages to teach in the elementary and 
secondary schools of our country?
    Secretary Riley. Well, you are exactly right. Of course, I, 
like you, took Latin in high school. I never have been sorry 
about it. I have felt it was a tremendous background. I took 
Spanish in college. I have always felt like it was a very good 
learning process to understand English and other languages.
    Right now, the numbers we have in the mid-1990's, in the 
1993, 1994, 1995 area, show that approximately 25 percent of 
the schools that sought to hire foreign language teachers were 
unable to find them. That is a very large percentage of 
something that a school district is seeking to find and simply 
can't find them in their community or attract people in. So, 
that is a real problem.
    One of the critical needs for teachers, as you know, we are 
going to need over two million teachers over the next 10 years, 
four critical needs are math, science, special education, and 
bilingual teachers, teachers who speak more than one language 
as the country is becoming more and more diverse.
    So, it is a critical need and you are seeing a lot of 
school districts and a lot of States are doing special things 
to attract teachers who meet these critical needs and in 
critical areas, very poor areas, some rural, a lot of them 
inner-city. Those are critical, needy areas and those critical 
needs for teachers and certainly language is one of them.
    Senator Cochran. There is, as you pointed out, support at 
the college and university level. Tell me how this works and 
what the funding levels of these programs are. How does a 
college or university qualify to receive Federal funds for 
Federal programs in that area?
    Secretary Riley. Well, the funding for the big program in 
postsecondary, the domestic programs, as they are called, is 
for 2001, the administration proposed $62 million for those 
programs, the same as fiscal year 2000.
    The overseas program that I referred to, $10 million, 
proposed an increase of $3.32 million over fiscal year 2000. 
Another program, International Public Policy, is like $1 
million. It is a small program that deals primarily with 
encouraging African-Americans and other minorities to get into 
international service. It is kind of a related thing.
    In the domestic programs grants are awarded to support 
centers, programs, fellowships and institutions of higher 
learning to produce increased numbers of trained personnel in 
research, in foreign language and so forth. Those are very 
sought-after programs.
    The percentage of schools offering foreign language 
instruction is, I think, an interesting point. Some 86 percent 
of our secondary schools and 31 percent of elementary schools 
offer some kind of language instruction. So, it is not 
something that is not out there.
    But these higher education programs are really what we 
build on. They are, we think, very, very important.
    Senator Cochran. There is one program that I don't recall 
hearing about. It is not referred to in my notes here. But my 
personal experience is that the Teacher Corps is something that 
the Federal Government participates in and local governments 
match some funds and try to place teachers of foreign 
languages, math, and science in areas of States where they have 
an inadequate number or just none whatsoever.
    I know my daughter taught French at Brookhaven High School 
in Mississippi, a public high school where there was no French 
teacher and they wouldn't have had one, I guess, but for this 
program. The Department of Education in our State participated. 
We had a private foundation that provided some money. I think 
Federal funds were involved, too. Is that a Federal program and 
are you still supporting the Teacher Corps program?
    Secretary Riley. Scott says he doesn't think it is now. It 
was in the past. I think Federal dollars were used to get the 
program started and then I think they phased out.
    Senator Cochran. I see. Well, thank you very much for 
giving us an overview of the Federal role in which you see are 
some areas of emphasis where we can play an important role in 
helping to meet this very important need for foreign language 
education and training and teacher recruitment as well.
    Thank you for your service as Secretary of Education.
    Secretary Riley. I thank you and I thank you for your 
service and I appreciate your interest in this very important 
education subject.
    Senator Cochran. Thank you.
    Our next panel will include, as I mentioned earlier, Dr. 
Robert Slater, Director of the National Security Education 
Program; Dr. Dan Davidson, President of the American Councils 
for International Education; Martha Abbott, Foreign Language 
Coordinator of Fairfax County Public Schools; Dr. Frances 
McLean Coleman, a teacher and technology coordinator at 
Ackerman High Security and Weir Attendance Center in 
Mississippi. We welcome you to our hearing. Thank you for 
responding to our invitation to be here this morning to discuss 
the issues that we have under review.
    I am going to ask Dr. Slater to begin. Let me point out 
just for information that prior to joining the National 
Security Education Program at the Defense Intelligence College 
in Washington, D.C., Dr. Slater was Director of Research and 
was responsible for developing a major program of research 
directed at improving interactions between the academic and 
defense communities on important third world issues.
    He also served as Senior Advisor to the Secretary of 
Defense on matters related to foreign language capacity in the 
Federal Government. He has also spent 11 years with the private 
sector as a Senior Research Consultant.
    He is a Ph.D. in International Relations from the School of 
International Service at the American University. He has 
written and published and edited, as you all might expect, 
books and articles on the subject of global transformation and 
revolution in political change. We have a copy of your 
statement that will be put in the record in full. We encourage 
you to make such summary comments that you think would be 
helpful to our hearing this morning.
    Dr. Slater, welcome. You may proceed.

 STATEMENT OF ROBERT O. SLATER,\1\ DIRECTOR, NATIONAL SECURITY 
                       EDUCATION PROGRAM

    Mr. Slater. Thank you. It is a pleasure to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Slater with attachments appears 
in the Appendix on page 79.
---------------------------------------------------------------------------
    In testimony provided to this Subcommittee last week you 
gathered some important evidence concerning the increasing 
importance of language competencies for the Federal Government.
    The rapidly increasing complexities of globalization have 
exposed the need for overhauling the current training and 
recruiting system in the Federal and academic sectors, 
including increased funding for goal-oriented academic language 
programs in critical languages coupled with incentives for 
linguistically proficient students to enter Federal service.
    The lack of language skills among professionals in the 
Federal Government, particularly in critical languages is an 
issue of U.S. national security.
    It is imperative for the Federal sector to consciously and 
systematically invest in a national effort to produce more 
qualified internationally skilled graduates from its colleges 
and universities.
    In my remarks today I would like to focus ever so briefly 
on some critical issues and respond to the mandate from this 
Subcommittee to offer some solutions.
    Each year the National Security Education Program surveys 
Federal agencies and offices involved in the conduct of U.S. 
national security affairs to identify critical areas in 
languages of the world. The needs are across the board for 
competent professionals who are language proficient.
    A submission from the Department of Commerce is 
instructive. It cites, for example, difficulty in finding 
qualified individuals with skills in Arabic, Chinese, Hebrew, 
Russian, Central Asian languages--Hindi, Tamil, Ukrainian, to 
name a few.
    It outlines needs for scientists and engineers who have 
Asian language skills, skills in economics, statistics, public 
policy, business administration, and law, coupled with language 
skills.
    The Department of State has experienced such difficulties 
in addressing some of its personnel needs and much to our 
satisfaction, they have turned to NSEP for assistance in 
identifying language competent professionals.
    To date the Department has hired at least 34 NSEP award 
recipients. A number of these individuals are filling positions 
in U.S. embassies. Their language study under NSEP auspices has 
provided them with the necessary competencies without need for 
additional and sometimes time-consuming language training. A 
list of these individuals is included in my complete testimony.
    In terms of a Federal response, the Federal Government 
really has no systematic plan for ensuring that its workforce 
possesses the necessary international competencies. Its two 
preeminent language-teaching institutions, the Defense Language 
Institute and the Foreign Service Institute, focus on 
important, but narrow segments of the existing Federal 
population.
    Furthermore the mission of these schools is for these 
students to generally attain basic or functional levels of 
language proficiency. These schools fill a critical void 
because students from high school and college language programs 
cannot meet Federal needs.
    While Federal programs need to be maintained if not 
strengthened, the longer-term solution to this program must 
also include more directed Federal investment in the U.S. 
educational system.
    As the Association of American Universities has stated, the 
raison d'etre of the American research university is to ask 
questions and solve problems. America's research universities 
are at the forefront of innovation. We rely on the U.S. higher 
education community to educate and train our leaders in 
business, commerce, science, and technology, and expect them to 
train the best and brightest for work in academic, business, 
and public sectors.
    But in the international skill arena, we are terribly 
deficient and woefully under-funded. The role of the higher 
education community remains pivotal in solving this problem. 
Indeed, together with an increasing emphasis on language 
acquisition in the K-through-12 environment, higher education 
offers the only feasible solution.
    It simply makes more sense to invest in our national 
capacity to produce educated Americans whose skill set includes 
language proficiency and then to create a path for them to 
Federal service. Otherwise, we continue down a path of ad hoc 
responses and Band-aid solutions.
    What role can the National Security Education Program play 
in addressing this growing problem?
    NSEP is the only Federal program that makes a direct link 
between the Nation's security interests and the development of 
critical language skills.
    The National Security Education Act of 1991 states that the 
Federal Government has an interest in ensuring that the 
employees of its agencies with national security 
responsibilities are prepared to meet the challenges of this 
changing international environment and has an interest in 
taking actions to alleviate the program of American students 
being inadequately prepared to meet the challenges posed by 
increasing global interaction among states.
    Each year we fund a small number of outstanding U.S. 
students to undertake meaningful language study as part of 
their academic programs. But equally important, we are a 
pipeline for students to enter Federal service because its 
award includes an obligation to seek Federal employment in an 
agency or office involved in national security affairs.
    You heard in earlier testimony about difficulties in 
identifying and retaining talented professionals in the Federal 
Government. Let me reassure you, there are many outstanding 
students in our colleges and universities who are eager to find 
jobs in the public sector.
    Our challenge is to create and increase opportunities for 
students to learn critical languages and then to establish 
paths, not obstacles, for them to facilitate their access to 
Federal jobs.
    It is this pragmatic function and accountable partnership 
that we embrace that has led us to propose a targeted solution 
to the Nation's critical shortfall in intermediate and advanced 
language expertise.
    In concert with the National Foreign Language Center at the 
University of Maryland, we have already committed NSEP to a 
pilot effort to create national flagship language programs in 
critical languages. The purpose is to establish a set of 
programs that will produce significant numbers of graduates and 
candidates for employment with the Federal Government with 
advanced levels of language proficiency in languages critical 
to national security.
    The NSEP and NFLC have already begun to map out such an 
effort through a series of in-depth site visits to 
universities. The objective is to make investments in a 
relatively small and manageable number of outstanding and 
regionally located institutions that will enable them to 
produce high-proficiency graduates.
    These institutions will demonstrate a commitment and 
capacity to achieve this goal. They will draw students from 
local, regional and national communities. They will support 
distance education, critical languages, and intensive language 
programs for a national student audience and program 
articulation with local, secondary and heritage education 
partners.
    The flagship programs will, through NSEP, attract students 
motivated by the service requirement to gain employment with 
the Federal sector. Most importantly, these programs will have 
one single and paramount goal: To produce advanced language 
proficient graduates.
    Let me close with one final thought. For many of us who 
have struggled for years to address this important issue, we 
are heartened by the interest demonstrated by you and this 
Subcommittee. We are eager to work to identify solutions and we 
are confident, given the right structure and funding, that the 
U.S. educational system can be successfully challenged to 
answer the call.
    This concludes my testimony. I will be glad to answer any 
questions.
    Senator Cochran. Thank you, Dr. Slater. We appreciate your 
testimony. It was very helpful and interesting.
    Dr. Davidson, we appreciate your being here. Dr. Davidson 
is President, and Co-founder of the American Councils for 
International Education. He is a Professor of Russian and 
Second Language Acquisition at Bryn Mawr College.
    He has held the rank of full professor since 1983. We are 
very fortunate to have him here today. Dr. Davidson has degrees 
in Slavic Languages and Literature from Harvard University and 
a long list of accomplishments that you would expect from 
someone who is so well educated as Dr. Davidson.
    Please proceed, Dan Davidson. We welcome you here.

 STATEMENT OF DAN E. DAVIDSON,\1\ PRESIDENT, AMERICAN COUNCILS 
                  FOR INTERNATIONAL EDUCATION

    Mr. Davidson. Thank you, Mr. Chairman. I am very grateful 
for the opportunity to appear before you today and to present 
views, experience and also some research results concerning the 
state of foreign language learning and instruction in the 
United States in the year 2000.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davidson with attachments appears 
in the Appendix on page 93.
---------------------------------------------------------------------------
    Most of my work, as you pointed out, has focused on the 
study and teaching of Russian. More recently, however, I have 
worked as chair and member of the K-16 U.S. Foreign Language 
Standards Collaborative, part of the Goals 2000 initiative that 
Secretary Riley mentioned. It is a group of presidents and CEOs 
of the National Foreign Language Professional Associations.
    I am also a member of the Standards Development Committee 
for all the foreign languages of the National Board of 
Professional Teaching Standards.
    I am a practicing teacher. For the past 25 years I have 
headed the principal study of broad organization for the study 
of the languages and regions of Russia, East Europe, the South 
Caucasus and Central Asia. These are programs funded by the 
U.S. Government and over 500 participating schools, colleges, 
academies, and universities where these languages are taught in 
the United States.
    First, I want to underscore that the central Federal 
responsibility, in my view, is to ensure that with regard to 
critical languages that we are able as a Nation to maintain 
language readiness or preparedness for the national security, 
economic, and educational needs we can reasonably anticipate.
    It is obviously too late to be worrying about language 
readiness for our military or intelligence and diplomatic 
capabilities when we are already deploying peace-keeping troops 
in Kosovo or negotiating a pipeline deal in Azerbaijan or 
hammering out a trade pact with China.
    Readiness begins, as the Chairman himself has pointed out, 
with the educational expectations of our youth, and it 
continues throughout our lives.
    Second, while it may be axiomatic that our national 
security needs in this area include law enforcement, diplomacy, 
defense, and intelligence, we cannot afford to see these needs 
solely as a dimension of the Federal Government and its 
agencies.
    Matters of national security for which sophisticated 
language and cultural skills are needed are cross-cutting with 
the private sector as well and obviously include business 
interests, NGO activities, and educational enterprises.
    Our solutions to the problems we face as a Nation typically 
involve all of these sectors, whether the challenge is focused 
on trade, public health, the environment, or the like. So, we 
must all consider that the solutions that we may find for the 
Federal Government may well have major implications outside the 
Federal Government as well.
    Third, I do want to mention to the Subcommittee and to you, 
Mr. Chairman, that there is a very strong track record of 
Federal assistance in foreign language when it has occurred. It 
can have profound positive, and effective results.
    The National Security Education Program is one such 
example. It is a relatively small and young program. It has 
made a difference in our language readiness.
    I would also like to point to the important work of the 
Title VI Program and the Fulbright-Hayes 102(b)(6) Program 
against small programs referenced by the Secretary of Education 
that have had leverage and impact well beyond their relatively 
small budgets.
    I also want to point out work done over the years in 
teacher training by the NEH programs that terminated largely in 
1995-96 and also the Title VIII Program for my regions of the 
world administered by the State Department.
    A lot of the results are summarized in an excellent book 
that appeared only a couple of weeks ago, published by the 
National Foreign Language Center's Dr. Richard Brecht and 
William Rivers, who are here today at this hearing. It is 
called ``Language and National Security in the 21st Century.'' 
It is an excellent volume summarizing the role of the Title VI/
Fulbright-Hayes in supporting national language capacity. It is 
a good volume. I recommend it.
    There is more to mastering a foreign language than simply 
knowing a lot of words and remembering the complex rules for 
stringing those words together. No matter how quickly and 
skillful a learner can be.
    As previous testimony from the FBI, the State and Defense 
Departments have underscored, effective communication and 
successful negotiations with a foreign partner--whether with a 
partner in peacekeeping, a strategic economic partner, a 
political adversary, or a non-English speaking contact in a 
critical law enforcement action--requires strong comprehension 
of the underlying cultural values and belief structures that 
are part of the life experience of the foreign partner.
    In fact, English language alone is probably sufficient if 
all we need to do is buy our products abroad, if we need to 
purchase foreign goods and services. But when it comes to 
selling a product abroad, you have to understand the psychology 
and the belief structure of your client.
    If you are selling America abroad and telling America's 
story abroad, as our colleagues in the State Department stress, 
then you have to understand the value systems of that foreign 
public that you are speaking to.
    Our Nation's distinguished senior diplomat in Russia, 
Ambassador Jim Collins, who is also a good friend, in a recent 
conference on the Department of Education's Title VI, commented 
that in Moscow he arguably has at his disposal the best 
translators and linguists produced by the U.S. Government and 
by the Russian government, for that matter.
    Yet, if he did not speak Russian at the 3+ level, he would 
be largely lost or in deep difficulty in trying to make 
political sense of the things that take place in an average day 
at our embassy in Moscow. That is how important his personal 
knowledge of Russian history, language, and culture has been 
for this very senior and respected diplomat.
    I think that says a lot about what we need to do here. The 
solution is not through technicians, but it is through 
educating, as Dr. Slater has said, people, professionally and 
early on in their careers in languages.
    I want to turn now to the issue of the architecture of the 
U.S. foreign language field. What are we doing right now and 
where are we succeeding and why aren't we succeeding more? We 
have, entering American colleges and universities in September 
2000 the largest freshman class in the history of America.
    We have a total 14.5+plus million students in 2- and 4-year 
public and private universities across the country, a total of 
4,096 institutions. Of those 14.5 million people, a grand total 
of one million, or fewer than eight percent, will actually 
study any foreign language at all in their college careers. Of 
those one million students, 50 percent will be studying 
Spanish. Of the remaining half million students, a disturbingly 
large percentage will spend that time in elementary and low-
level, intermediate courses. Very, very few will go on to the 
most advanced levels. Thirteen percent will go beyond the 1+ 
level. Five percent will move to the 2+ level and a disturbing 
one percent will go to the 3+ level.
    Now, we in our research have looked at that one percent. 
How did they do it? What is the secret of those who do succeed 
and what can we possibly do to increase that flow? The system 
can produce the three levels. The question is: Why doesn't it? 
We have looked at the successful models. They have been called 
variously flagship models of excellence. This is not something 
that has to do with necessarily the size of an institution or 
its name in the field. It has a lot to do with what happens in 
the foreign language career.
    I would like to point out in summary what we have seen that 
works in the American system. When we have articulated programs 
of the K-16 model, when we have universities capable of picking 
up the students from their high school training and moving them 
successfully on to the next step in the sequence of learning, 
we have a success rate that is by far disproportionate to the 
numbers that go on the K-16 sequence. I am happy to report that 
there is more of that planning now going on.
    Second, when we have students in the less commonly-taught 
languages who don't always have the opportunity to begin these 
critical languages in high school or in elementary school, 
those students who have learned another language and then go on 
to add a critical language almost invariably do better and have 
a higher likelihood of succeeding and achieving high level 
proficiency in the critical language thanks to that expertise 
that they developed in school prior to that.
    Third, program students who have access to intensive summer 
institutes, we sometimes call them ``greenhouses,'' but those 
intensive summer immersion institutes are remarkably successful 
at bringing people over a critical threshold in the study of a 
language that then positions them ideally to study abroad for a 
year in that target language.
     When you can study abroad for a year and you have the 
language to sit alongside a student in a foreign university, 
then you can not only do your language, you will be growing in 
your language even as you study your other discipline at the 
same time.
    We see the results of content-based instruction improving 
results of language training and we see students coming out of 
those programs better specialists, not only in language, but 
also in fields like business, thermodynamics, physics, art 
history, whatever their other interests are.
    Finally, we see institutions that will find a place in 
their senior year curriculum for a capstone experience for 
those students who have had the successful career, and have 
spent the year abroad. There must be something to do when you 
get back to college that is a capstone experience where you can 
apply those skills, where for the first time you will be 
speaking with heritage speakers of those same languages in an 
intellectual experience that integrates that knowledge in 
language, in business, in history, in physics, and whatever 
else one has done. I think institutions where that happens are 
producing those 3+ level speakers.
    Mr. Chairman, if I can elaborate on any of these comments 
later on, I would be happy to. Thank you very much.
    Senator Cochran. Thank you, Dr. Davidson. We appreciate 
your comments and your statement, which will be in the record 
in full. Thank you.
    Ms. Abbott, we appreciate your being here. Ms. Abbott is 
serving as the K-12 Foreign Language Coordinator for Fairfax 
County Public Schools. She supervises 400 foreign language 
teachers who are involved in programs ranging from elementary 
programs in French, German, Japanese, and Spanish, to secondary 
programs including other languages such as Arabic, Chinese, 
Korean, and Russian, which are designed for fluent speakers.
    She has been given awards and citations for her excellent 
performance in these areas. She serves on the Executive Council 
Board of the Joint National Committee on Languages and the 
Foreign Language Academic Advisory Council to the College 
Board.
    In 1998, she was awarded a Florence Steiner Award for 
leadership in K-12 foreign language education.
    Ms. Abbott, thank you for taking time to be with us this 
morning. We look forward to hearing your testimony.

STATEMENT OF MARTHA G. ABBOTT,\1\ FOREIGN LANGUAGE COORDINATOR, 
                 FAIRFAX COUNTY PUBLIC SCHOOLS

    Ms. Abbott. Good morning, Mr. Chairman, and thank you for 
inviting me to provide testimony this morning. Every morning 
more than 3,000 elementary students in Fairfax County public 
schools begin their day saying ``Buenos dias, Bonjour, 
Gutentag, or Ohayoo gozaimasu.''
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Abbott appears in the Appendix on 
page 103.
---------------------------------------------------------------------------
    But their use of the foreign language doesn't stop there. 
For half of their school day, all the learning takes place in 
the foreign language. The subjects taught are math, science, 
and health.
    Around mid-day they change teachers and the rest of the 
school day the learning takes place in English in the studies 
of social studies and English language arts. Foreign language 
programs like these are being replicated across the United 
States because the time is right and the time is now.
    We have entered the age of global communication and 
cultural diversity. Now, more than ever, there is a need for 
Americans to equip themselves with languages other than English 
in order to work, live, and compete economically in this new 
world.
    In order to prepare our citizens for this new world, we 
must begin to build up the capacity among all Americans to be 
multilingual and multicultural world citizens. Building this 
kind of capacity needs to become a goal of all governmental and 
educational institutions across the country.
    Building this national capacity is a lengthy process that 
must become a fundamental part of the education of every 
American child. That is why over 3,000 students in Fairfax 
County public schools begin their day learning in another 
language because they are the beginning of our capacity 
building.
    The first students to begin in our Language Immersion 
Program in 1989 are now entering college. Their dreams and 
aspirations are quite different than they would have been had 
they not had the opportunity to learn in two languages.
    These students have their sights set on majors in 
international business, their summers filled with internships 
working in foreign-owned businesses and their vacations 
destined for countries where they can speak the language and 
function in the culture.
    Learning in two languages has a profound impact on one's 
view of the world. It liberates individuals from their 
insularity and it provides students with more than one way of 
looking at issues and even more possibilities for resolving 
those issues. Most of all, it produces students who are 
confident in their abilities, who look beyond the usual 
boundaries in life.
    I would like to add that many of the students in our 
Foreign Language Immersion Program qualify for entrance in our 
magnet school for students gifted in science, the Thomas 
Jefferson High School for Science and Technology. Even though 
they learned their math and science from Grade 1 on in French, 
German, Japanese, or Spanish, they still meet the entrance 
requirements for this prestigious magnet school.
    Yes, the time is now and the time is right. As the only 
industrialized country that routinely graduates students from 
high school with knowledge of only one language, English, we 
need to act now to set in motion the foreign language programs, 
the funding, and the professional development for teachers that 
will provide this opportunity for all American children and 
will begin the capacity building in languages nationwide.
    One of the best ways that the Federal Government can build 
the language capacity of our Nation, as suggested at last 
week's hearings and as you heard today by members of various 
government agencies, is to begin with our children in foreign 
language programs that begin early, including programs in Latin 
and dual language programs that allow native speakers of a 
language to learn English while improving their native language 
skills as well.
    Building our national capacity in this area also requires 
us to look at the type of programs we fund, the availability of 
qualified teachers and the professional development of in-
service teachers.
    Changing the instructional approach in foreign language 
classrooms from the old emphasis on grammar translation to an 
emphasis on functional communication is a necessary first step.
    How many generations of Americans have to say, ``I took 4 
years of French, but I can't say anything'' before we take 
action and change our direction?
    Programs aligned with the National Foreign Language 
Standards focus on developing our students' ability to 
communicate in the language and to understand how to interact 
with native speakers of the language. But how many of our 
programs reflect this focus? Pitifully, very few. Most often it 
is at the elementary level where one finds programs that are 
truly designed to meet this communicative objective and that 
truly engage the students in this learning process.
    These elementary school programs have increased due to 
Federal support through the Foreign Language Assistance 
Program, FLAP. But the few new programs that FLAP supports are 
not enough. We need a more concerted and consistent national 
approach to the establishment and maintenance of quality 
foreign language programs across the country.
    Probably no discipline stands in a position to benefit from 
technology innovations as much as foreign language instruction. 
We should have given up long ago the teacher-directed model of 
the foreign language classroom.
    Language learning is an individual process, which should be 
facilitated by the teacher, but enhanced by current video and 
audio technology components so that students can truly progress 
at their individual learning rates.
    Distance learning and other technological advances help us 
address the issues of the less-commonly taught languages such 
as Arabic, Russian, and Chinese, which are difficult to 
implement particularly in rural areas.
    We need to harness the capabilities of the technology age 
to help us teach languages effectively to our young people. 
With the need to change our instructional focus comes a 
critical need for professional development for teachers. Most 
teachers are doing what comes naturally, teaching the way they 
were taught. We will continue to perpetuate the old way of 
instruction unless we radically change the focus of our current 
teaching force.
    With the recent approval of the foreign language standards 
for the National Board for Professional Teachers Standards, 
there will be an incentive for master foreign language teachers 
to get board certification.
    We must develop a plan for ensuring that these teachers 
become an important resource for both novice and veteran 
teachers alike. It is a new age and we need new ways about 
thinking about language instruction.
    Finally, few obstacles stand before us as mightily as the 
shortage of qualified language teachers nationwide. Although 
some disciplines are in a more difficult situation than others, 
a July 4, 2000 article in The Washington Post entitled,\1\ 
``Schools Desperate for Foreign Language Teachers,'' outlined 
how particularly critical the situation is within the foreign 
language field.
---------------------------------------------------------------------------
    \1\ The article from The Washington Post appears in the Appendix on 
page 166.
---------------------------------------------------------------------------
    As someone who is responsible for assessing the teacher 
candidates who apply to our school system, I have witnessed 
this shortage, particularly over the last several years. Even 
in a large suburban school district such as Fairfax County, we 
were never fully staffed in Spanish last year. Due to illness, 
maternity leave, or transfers, we were in constant search for 
teachers of Spanish during the 1999-2000 school year.
    This year our new hires included 80 new foreign language 
teachers as well as four teachers from Spain through a program 
offered by Spain's Ministry of Education.
    And we still have vacancies. A crucial part of our 
capacity-building effort is to professionalize the teaching 
field to attract the best and brightest to enter the education 
profession. We are positioned as never before to move forward 
in our capacity-building effort to create a citizenry for the 
future, a global citizenry in which languages and cultures are 
valued, encouraged and rewarded.
    As the United States moves forward from the isolation of 
the past, so, too, must we work to move our children's young 
minds beyond the familiar neighborhood to a wider world of 
experience. We must use languages as a means to accomplish 
this.
    Thank you.
    Senator Cochran. Thank you very much, Ms. Abbott. That was 
very interesting and helpful testimony.
    Frances Coleman is a Ph.D. from Mississippi who is a friend 
of mine of long standing. We are very lucky that she is up here 
in Washington right now as an Albert Einstein distinguished 
educator fellowship winner at the Department of Energy.
    She has extensive personal experience as a teacher in our 
State. She has been cited time and again as a recipient of 
awards for excellence in science teaching as well as the use of 
technology in the classroom.
    She has been a leader in our State in so many areas. It is 
kind of hard to believe. She has a Ph.D. from the University of 
Mississippi Medical Center in Physiology and Biophysics. She 
also has studied and become proficient in French, German, 
Computer Science, Mathematics, and in teaching gifted children.
    She has won the Mississippi Association of Physics 
Outstanding High School Teacher Award, a Presidential Award in 
Excellence in Science Teaching, the Tandy Technology Prize. She 
is a member of a lot of organizations. She has published a lot 
of things. She has presented papers. The list is kind of 
staggering here. I am not going to read everything. But you get 
the drift of this. She has been chosen by the Mississippi 
University of Women for the Teacher Hall of Fame.
    We are glad she is here in Washington to try to help us get 
a better understanding of some of the practical things that we 
can do to assist and support education in the elementary and 
secondary levels and the college level as well.
    I am delighted to welcome to our hearing one of our 
distinguished citizens of the State of Mississippi, Dr. Frances 
McLean Coleman.

    STATEMENT OF FRANCES McLEAN COLEMAN,\1\ Ph.D., TEACHER/
     TECHNOLOGY COORDINATOR, ACKERMAN HIGH SCHOOL AND WEIR 
         ATTENDANCE CENTER, CHOCTAW COUNTY, MISSISSIPPI

    Ms. Coleman. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Coleman appears in the Appendix 
on page 108.
---------------------------------------------------------------------------
    In my other life, before I became an Einstein Fellow, I 
taught in two small, relatively poor rural schools in Choctaw 
County, Mississippi. Choctaw County is about 100 miles north of 
Jackson, so you know where it is.
    I am going to describe how we have been attacking the 
problem of teaching foreign languages as well as some other 
problems in these schools.
    I teach in Ackerman High School and Weir Attendance Center. 
Ackerman High School has about 500 students in grades 7-12 and 
graduates about 60 students each year. Weir Attendance Center 
has about 600 students in grades K-12 and graduates about 30 
students each year.
    There are also about two elementary schools in the district 
for a total of about 1,900 students. The district is 
approximately 40 percent minority.
    In 1981, our newly-elected County Superintendent of 
Education had the idea of using a Liberal Arts graduate and 
technology to teach the students at these schools the courses 
they would otherwise not be able to take, but that they needed 
to take to prepare for college. The courses might be 
unavailable either because there was not a teacher to teach the 
course because only one or two students wanted the course and a 
teacher could not be spared.
    For example, in the past Ackerman had occasionally had 1 
year for foreign language but Weir had never offered a foreign 
language and neither school had ever offered physics. Our 
superintendent applied for and received a grant from the 
Federal Government for an experimental program.
    He offered me the chance to start this program in the 1982 
school year at Ackerman High School. As I remember, I taught 
Physics, French, German, Basic Programming and Calculus to a 
handful of students.
    The district decided that the program was a success and the 
next year Choctaw County funded the program and expanded it to 
include Weir. At that time I taught all the foreign languages 
that were offered. Since then we have added a regular teacher 
who teaches 1 year of French in Ackerman and one who teaches 1 
year of Spanish at Weir. I teach in the years after that first 
year.
    I teach three periods in Ackerman in the morning and three 
periods in Weir in the afternoon. The number of students now 
varies between 60 and 100 for the year.
    In addition to the subjects with which I started, I teach 
Anatomy and Physiology, Marine Science, Environmental Science, 
Humanities, Mythology, Creative Writing and various computer 
courses. I am certificated in all the subjects that I teach.
    Those subjects in which I am not certified, including 
Spanish, Russian and Japanese, my two aides and I arrange to 
offer to the students through distance learning.
    This program is different from other courses in that the 
students are scheduled to come to my room whenever they can fit 
a class into their schedule. Scheduling is particularly 
difficult in a small school because there is often only one 
class period when a course is offered.
    I might have four or five different courses being studied 
in my room at one time. All classes are taught in a variety of 
ways, but making full use of technology. The students learn 
personal responsibility and independent as well as their course 
work.
    Distance learning for us has mostly changed from one-way 
video and two-way audio, that is, television delivered by 
satellite and telephone responses by the students, to a better 
distance learning model, the two-way audio, two-way video 
network that Mississippi has in place and is coordinated by 
Mississippi Educational Television.
    Almost every county in the State now has an electronic 
classroom in at least one of its high schools. K-12 schools, 
community colleges and universities can be connected as 
desired. We have found, however, in our district that although 
distance learning is better than no course at all, in most 
instances a teacher in the classroom with the students, even if 
that teacher is split between students in several courses, 
works better.
    In order to increase the number of students who become 
proficient in the language, I would agree with almost 
everything I have heard.
    First of all, we need to make the students, their parents, 
and school administrators in the K-12 system especially see the 
importance of foreign language proficiency to students and to 
the country.
    Next, we need more foreign language teachers. There was an 
effort by the Mississippi Foreign Language Teachers Association 
to encourage the State Legislature to require 2 years of 
language for high school graduation. This failed, largely 
because many of the superintendents in the State said it would 
be impossible for them to find teachers.
    Finally, we need to increase the requirements for foreign 
language in both K-12 and post K-12 institutions.
    Thank you.
    Senator Cochran. Thank you very much, Dr. Coleman. I think 
one of the interesting things about Dr. Coleman's comments is 
that a Federal program grant started the teaching of subjects 
in this school district which, but for that Federal grant might 
not have been started, or I think we can safely say, wouldn't 
have been started, at least when they were started.
    This illustrates another point, I think, the Teacher Corps 
Program that I asked Secretary Riley about, which has been 
discontinued now in terms of Federal funding, is still in place 
in different ways.
    I know there is a foundation based in Meridian, Mississippi 
that has assumed the responsibility of providing some of the 
funds for that program. I think it has taken up the slack. The 
State has also put more money in foreign language instruction 
in a variety of ways.
    In terms of an organized plan and strategy for leading the 
challenge of recruiting teachers, training people to be 
teachers and starting foreign language programs so they are 
available throughout the K-12 experience is something that we 
have to work on to accomplish.
    I think that is the message that I get from this panel of 
witnesses and the importance of it is very clear.
    Ms. Abbott mentioned getting teachers from other countries 
through programs that are available in those countries, 
reciprocal opportunities. That is an interesting idea and I 
hope we can explore how we can take advantage of that in more 
countries other than just Spain and Fairfax County. But that 
sounds like it offers promise as well.
    Dr. Davidson's comments about our Ambassador to Russia, 
Ambassador Collins, brings back the memory of a recent trip to 
Moscow where I was with him and saw him in action in several 
meetings where his cultural and language proficiency stood him 
in very good stead in discussions that we had.
    It also reminded me, when you said something about cultural 
education, not just technically trained language scholars are 
needed for effective influence as diplomats or in business or 
the like. If you don't understand what somebody is talking 
about in terms of their cultural and national interests, you 
might be just as lost as can be.
    It reminds me that I did spend a year at the University of 
Dublin in Ireland. I thought I spoke that language until I went 
during my first week there to an arts festival and on the stage 
one of the first people was a storyteller who was telling folk 
tales about Ireland. I didn't understand a thing he said.
    But the crowd would laugh or they would gasp and they were 
reacting to the stories and obviously enjoying these stories 
about Ireland. I didn't understand the language and didn't 
understand the point or anything at all. But that was the first 
week I was there.
    I think by the time I finished the entire year I did 
understand, not only the language, but also the nuances and the 
humor and why things were funny that the other people there 
thought were funny, too. So, that is a very important 
consideration in all of this, particularly for the Foreign 
Service professionals and the Defense Department professionals 
who are going to have contact with people from other countries.
    Dr. Slater's comments about the goals producing advanced 
language graduates in our colleges and universities in the 
program that you have made in investment in, selected 
universities where we can concentrate the teaching of language 
programs at a higher level of proficiency, sort of super 
graduate schools, I guess, in these areas.
    Let me ask you in that connection when you were talking 
about that program, how did that program get started? What is 
the source of funding? Does the Federal Government have a 
direct role in that program?
    Mr. Slater. Well, the program I referred to is actually a 
part of our institutional grants we award every year to 
universities to undertake innovative programs in language and 
international study.
    The program I alluded to in my testimony is a pilot effort 
we have undertaken where we have carved a small amount of money 
out of our program to simply explore.
    What I should add to that is we don't really have the 
funding to implement at this point, but we felt it is so 
important to start to work with universities to identify ways 
in which they can be empowered to leverage the resources they 
have now to start producing intermediate and advanced language-
competent individuals.
    One of the things you have to understand is that 
enrollments in these languages on any single campus is 
extraordinary low. Dr. Davidson referred to the small number. 
When you divide that among thousands of universities across the 
United States, we may have five students at one campus taking a 
particular language at the intermediate or advanced levels. So, 
the university is not capable of mounting a program without 
leveraging funding.
    What we are looking toward is building the capability to 
hopefully start to fund some of these institutions to raise the 
level and build them as institutions that we recognize as the 
ones in the United States where you go, whether you are in the 
university, whether you are in the Federal Government, if you 
want to pursue language education at an advanced level. These 
are the ones who become the models for providing that. But we 
don't yet fund them.
    Senator Cochran. You referred to language skills coupled 
with disciplinary training. What disciplines are in most demand 
and for what languages?
    Mr. Slater. Applied sciences and health are two examples of 
disciplines that cut across Federal needs. We find, for 
example, that the Defense Department indicates that we need 
health and environmental professionals who speak other 
languages. The new agency that deals with issues of 
denuclearization in the Department of Defense has difficulty 
finding individuals with a science background who speak Russian 
at the intermediate and advanced levels.
    So, it really increasingly over the years has cut across 
all the disciplines, particularly the applied sciences, 
engineering, but also law, health, environmental science, etc. 
Those are becoming critical fields.
    Senator Cochran. Dr. Davidson, you mentioned the need for 
cultural immersion. How, as a practical matter, are we going to 
do a better job of that as we are teaching the technical 
foreign language capabilities to Federal employees who need to 
know a foreign language?
    Mr. Davidson. I think we have several resources that we 
know will deliver higher levels of sophistication and culture. 
Increasingly, Mr. Chairman, we understand that actually 
language and cultural knowledge are almost indivisible. I mean 
learning one is the other. I think probably the handicap of the 
greenhouse is that it tends to emphasize, the stateside 
greenhouse tends to emphasize the technology skills of 
producing a speaker of a somewhat disembodied kind of language 
that isn't so anchored.
    You know from your year in Dublin that a lot of those 
experiences are grounded in actual things that happened to you 
while you were there as you watched people react to what you 
said and you learned why something was funny in a particular 
context.
    So that obviously study abroad is a major value-added for 
the language learner. Doing it at a point when you can combine 
your study with an area of intellectual or academic or 
professional interest is a big value.
    For those who can't go abroad, the Internet has come to our 
assistance with streaming video, authentic materials we can now 
use, live video and authentic sources, archives, conversations 
in the classroom process. I think both my colleagues mentioned 
that as well. It is a powerful tool. It doesn't substitute 
being there, but it does bring authenticity at really even the 
earliest levels.
    Senator Cochran. Has it been your experience that the 
distance learning has the capacity to be improved or has it 
been improved in your experience and does it offer a potential 
that we may not have yet realized.
    Mr. Davidson. My experience is a long one, Mr. Chairman, so 
that I recall very well in the 1970's and 1980's when our 
technology basically was sort of fancy electronic flashcards 
just giving us quick technical responses. We have come a long 
ways since the economic flashcards.
    The fact that learning nowadays can be modularized, that as 
my colleague in Mississippi pointed out, it is possible for 
independent study that is facilitated and overseen by a 
teacher, but modules that actually are self-paced and geared to 
a learner's particular style of learning, the level that they 
have reached, and continual assessment element at the end so 
that I know before I go on to the next module how well I have 
mastered this unit, whether I should return or whether I can go 
on.
    So, it does wonderfully powerful things in terms of 
individualizing learning. The example that Dr. Slater made, we 
may have a total of only five learners of Azeri in all of the 
United States at this moment. But those five learners, if we 
are lucky, are in one or two places. More likely they are in 
more than one or two places. They may each have a specific 
need. They may need Azeri or they may need that language for 
business. So, the modularized approach that distance learning 
now makes possible is there.
    I think your question, though, is can it really replace 
teaching? I think the answer is that we haven't really seen 
that happen yet, but it certainly enhance and let teachers say 
``yes'' to student requests that before they would have to say 
``no, we don't do that. We don't have that''
    Now, you can say ``yes'' more of the time.
    Senator Cochran. We had some demonstrations here in our 
Subcommittee of jurisdiction over education a few years ago. We 
had an experimental program, a demonstration program that was 
funded with Federal dollars. We had a few schools in 
Mississippi able to take advantage of that.
    The educational television system in our State, we were one 
of the first States that had statewide coverage of a public 
television system, so we were ideally suited, as Ms. Coleman 
pointed out, to experiment and demonstrate some of these 
technologies.
    I haven't really checked on the status of that lately, so I 
was glad to hear the report from Dr. Coleman's personal 
experience.
    I remember Japanese courses were being taught at Iuka 
School way up in the northeast corner of Mississippi. The 
University of Kentucky was the platform where the actual 
teaching was done from, to these other places throughout the 
country.
    One problem that I remember was the expense. It is not easy 
to pay for the expense of these new technologies. That may be 
where the Federal Government comes in, to try to help figure 
out a way to more economically make these resources available 
to State and local school organizations that want to use them.
    What is your opinion or view of that? Do you have any 
personal experience on how we can make this more economical or 
more feasible?
    Mr. Davidson. The National Security Education Program, as 
Dr. Slater mentioned, funds not only scholarships for graduate 
students and undergraduates abroad, but also institutional 
grants that allow institutions to address just these kind of 
problems.
    I would say the issue is the development of the modularized 
forms of Internet based learning. It's the time of digitizing 
and of developing those templates and testing them and so 
forth. That is very labor-intensive and very expensive. There 
is an obviously role for the Federal Government there.
    Once it is out there, then the actual utilization is not so 
expensive. So, I think particularly the role in development is 
important.
    Senator Cochran. Dr. Slater, do you have an opinion on that 
or a comment?
    Mr. Slater. The daunting part of technology is that it 
changes every day. It is very expensive. The issue of language 
learning is that it is active; it is not passive. One of the 
challenges in technology is to interact through distance 
education with the students as opposed to just delivering 
language education to students in other locations. That becomes 
expensive.
    As the technology advances, what is important is that we 
continue to monitor ways to deliver.
    We have a set of students in the Rocky Mountain region 
through a cooperative agreement with Montana State University 
and the University of Washington where more than a dozen 
university students in areas you would never think would want 
to learn Arabic are actually studying Arabic now that it is 
being delivered to them interactively by the University of 
Washington.
    So, it can work. The problem is it is expensive and it is 
technologically still very challenging. So, we need to continue 
to work on ways to improve it. But this is one of the ways to 
get access to more students.
    Dr. Davidson points out, and it is very important, we are 
never going to replace the teacher. In language education we 
can only supplement and improve on what they do and gain access 
to more students, but we are never going to replace the teacher 
in this area.
    Senator Cochran. Is there anything available to other 
school districts like Fairfax County or those in Mississippi 
that tried and true method of methodology or technology in 
teaching of foreign language that the Federal Government as a 
facilitator could help make available throughout the country?
    Is there a magic bullet out there that we are somehow not 
hearing about?
    Mr. Davidson. I think there are probably many people in 
this room that have opinions on that subject. My colleague, Ms. 
Abbott, commented on the standards-based materials that are 
coming out. The standards across fields are comparable in the 
Goals 2000. We are seeing an increase of very interesting 
materials that are standards-based for Grade 4, for Grade 8, 
for Grade 12 or for Grade 14 or 16. They are not only 
articulated materials, but they make kind of sense in terms of 
the outcomes that we are all striving to deliver in the system.
    So, the standard-based materials and institutions, and I am 
going to mention one for foreign language called LangNet, which 
is still inchoate, but it is up there already and it is 
available, by the way, free of charge right now, thanks to both 
Federal and private foundation support, including support from 
the Ford Foundation as well as the Federal Government, that 
makes quality-assured resources that have been tried and tested 
by teachers themselves and sort of screened and put up on the 
Net for voluntary use by teachers anywhere in the country.
    So, there are some very encouraging developments. Again, 
that LangNet is a structure that we have to continue to polish, 
but there is good material that comes from the practitioners 
themselves. It is up there for use. So, I think there are some 
encouraging trends.
    Senator Cochran. That is very interesting.
    Ms. Abbott, what, if anything, could you recommend that we 
do in terms of Federal policy and programs that would help you 
do the job of meeting this challenge of foreign language 
learning at the local public school level?
    Ms. Abbott. I am not sure I have a magic bullet here 
either, but I think in terms of attracting teachers to the 
field, we need to look at the salary issue. One of the basic 
reasons that young college graduates don't go into teaching is 
because of a lower salary start.
    Even in Fairfax County with a beginning salary of $31,000, 
we lost a couple of teachers last year. They were sharing a 
house with young college graduates who were in the tech field. 
They have a much higher salary. They don't bring work home at 
night and they don't have the stress level during the day that 
a teacher does.
    So, they start to weigh those kinds of issues. I think that 
we need to take a serious look at the culture of the teaching 
profession and the salary issues.
    Senator Cochran. Are you in the Fairfax County Public 
School System using Foreign Language Assistance Program funds?
    Ms. Abbott. We got our program off to a start with the 
Secretary's Discretion Fund grant that was given to George 
Mason University that we just used for some teacher training in 
the early years. Then we also benefited from an incentive grant 
to keep our program going.
    But we like to include it in our baseline budget because 
then we can be assured that we always have it. So, it has been 
now long enough in our program in our school system that it is 
part of our baseline budget.
    Senator Cochran. Do you know whether foreign language 
instruction is a determining factor in post-secondary education 
or career choices?
    Ms. Abbott. We have talked to a number of our students 
graduating and they all have aspirations of continuing their 
language study. They all want to travel to the country, if they 
haven't already. They all want to include it as part of their 
career goals.
    Senator Cochran. We had a panel of witnesses at our first 
hearing. We heard how agencies used something called the 
``machine translation tools.'' That is a fancy phrase, I guess, 
for having a machine translate foreign language writing or 
maybe spoken, if it is recorded, too.
    I am curious to know from the people who have had 
experience in the classroom, are these devises used in schools 
or is this a helpful way to help teach foreign language skills, 
using machine translation devices?
    I am going to ask that of Ms. Abbott and Dr. Coleman. Is 
that technology helpful at all?
    Ms. Abbott. It is not really helpful to the schools unless 
they have a professional to review the translation. That takes 
quite a bit of work. We had some elementary schools that tried 
to use that kind of translation devise and they came out with 
some incredible letters to parents that made no sense at all. 
So, we nipped that in the bud.
    But you would need a professional to overview that kind of 
translation. It is not perfected yet.
    Senator Cochran. Have you had any experience with that?
    Ms. Coleman. Just a little bit. I would say it is extremely 
easy, if you happen to give an assignment that they are 
supposed to do something in the other language and they do it 
that way, it is very easy to spot.
    Senator Cochran. In the use of the distance learning 
programs, we were talking, Dr. Coleman, about your experience. 
There is not a substitute for the teacher in the classroom. 
That is the point.
    Are these programs helpful at all? Have you encountered any 
televised or interactive distance-learning program that you 
thought was particularly helpful or useful?
    Ms. Coleman. Well, the programs that we have delivered over 
our ETV system are interactive because that is cameras and 
television sets, both for the person who is producing the 
course and the classroom. So, they are very interactive. You 
can immediately speak to the people at both ends. So, they are 
good. They are still not quite the same as having the teacher 
where the student can touch them and actually be in the room 
with them.
    By the way, those rooms, which cost originally about 
$80,000 each, were started with Federal funds from the Star 
schools. The cost has dropped now. I think they may be down as 
cheap as $50,000 now.
    Senator Cochran. It still sounds expensive, doesn't it?
    Ms. Coleman. Yes, it does.
    Senator Cochran. Have Federal funds from any source been 
particularly helpful to your school districts or any others 
that you are familiar with in Mississippi in terms of foreign 
language education or training of teachers and the like? Is 
there anything that is helpful on the Federal program level at 
this point?
    Ms. Coleman. I don't know actually of anything. It could be 
that some of the programs that are at the universities are 
assisted with Federal funds, some of the things that give 
teachers a summer experience that everybody was talking about. 
They are probably assisted with Federal funds.
    As a teacher who teaches both science and math and foreign 
languages, I see many more programs for science and math 
teachers where the teacher can go for 2, 3, or 4 weeks in the 
summer and be paid, than there are for foreign language 
teachers to go, and be paid. That would be a place I could see 
the Federal Government putting some money.
    Senator Cochran. Ms. Abbott, do you agree with that? Is 
that a program that you think would be helpful to your teachers 
or would help you recruit teachers?
    Ms. Abbott. Yes, definitely. I think that teachers would 
benefit from that kind of concerted effort toward professional 
development. As I mentioned in my testimony, we need to turn 
around the way languages are taught in this country, 
definitely.
    I also fully support the FLAP program and believe that it 
has started a lot of good, new foreign language programs. But 
we need to have some quality control there and we need to make 
sure that those programs are getting off to a good start.
    We need to make sure that those school districts can 
sustain those programs because the worse thing is to start a 
child off in first grade in a language program and then have 
the funds cut in fourth grade. Then they are out of the loop. 
That frequently happens.
    Senator Cochran. I want to ask this question of both of you 
as well. How is technology used in your schools, to your 
knowledge, to teach languages? Are there any new technologies 
that you have encountered that could be helpful, that are being 
developed, either Internet-type technologies or other 
communication technologies?
    Ms. Abbott. I would say that the main thing that we are 
looking at right now are online courses, because it is 
difficult for school systems to maintain the wide variety of 
courses that students need.
    Our immersion students, when they arrive in high school, we 
need to make sure they still have challenging foreign language 
courses available to them.
    We have started some dual credit classes with local George 
Mason University, but online courses would help us meet this 
kind of need. We are currently looking into some of the online 
courses that are available and possibly developing our own if 
they don't quite meet our needs.
    Senator Cochran. Dr. Coleman.
    Ms. Coleman. I would agree with that. The modular courses 
online sound particularly interesting because you could use 
modular courses as developed and make them fit each individual 
student. So, if modular courses were being developed, I think 
they would be very useful.
    Senator Cochran. Well, I think this has been a very helpful 
hearing. I appreciate very much the participation of each 
witness in this panel. You have added to our understanding of 
the issues and the challenges we face in making our programs, 
our schools and colleges and universities and our government 
agencies more responsive to the need we have for well-trained, 
proficient users of language as it relates to our national 
security interests.
    Thank you all for being here. This concludes our hearing.
    [Whereupon, at 11:30 a.m. the Subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8304.001

[GRAPHIC] [TIFF OMITTED] T8304.002

[GRAPHIC] [TIFF OMITTED] T8304.003

[GRAPHIC] [TIFF OMITTED] T8304.004

[GRAPHIC] [TIFF OMITTED] T8304.005

[GRAPHIC] [TIFF OMITTED] T8304.006

[GRAPHIC] [TIFF OMITTED] T8304.007

[GRAPHIC] [TIFF OMITTED] T8304.008

[GRAPHIC] [TIFF OMITTED] T8304.009

[GRAPHIC] [TIFF OMITTED] T8304.010

[GRAPHIC] [TIFF OMITTED] T8304.011

[GRAPHIC] [TIFF OMITTED] T8304.012

[GRAPHIC] [TIFF OMITTED] T8304.013

[GRAPHIC] [TIFF OMITTED] T8304.014

[GRAPHIC] [TIFF OMITTED] T8304.015

[GRAPHIC] [TIFF OMITTED] T8304.016

[GRAPHIC] [TIFF OMITTED] T8304.017

[GRAPHIC] [TIFF OMITTED] T8304.018

[GRAPHIC] [TIFF OMITTED] T8304.019

[GRAPHIC] [TIFF OMITTED] T8304.020

[GRAPHIC] [TIFF OMITTED] T8304.021

[GRAPHIC] [TIFF OMITTED] T8304.022

[GRAPHIC] [TIFF OMITTED] T8304.023

[GRAPHIC] [TIFF OMITTED] T8304.024

[GRAPHIC] [TIFF OMITTED] T8304.025

[GRAPHIC] [TIFF OMITTED] T8304.026

[GRAPHIC] [TIFF OMITTED] T8304.027

[GRAPHIC] [TIFF OMITTED] T8304.028

[GRAPHIC] [TIFF OMITTED] T8304.029

[GRAPHIC] [TIFF OMITTED] T8304.030

[GRAPHIC] [TIFF OMITTED] T8304.031

[GRAPHIC] [TIFF OMITTED] T8304.032

[GRAPHIC] [TIFF OMITTED] T8304.033

[GRAPHIC] [TIFF OMITTED] T8304.034

[GRAPHIC] [TIFF OMITTED] T8304.035

[GRAPHIC] [TIFF OMITTED] T8304.036

[GRAPHIC] [TIFF OMITTED] T8304.037

[GRAPHIC] [TIFF OMITTED] T8304.038

[GRAPHIC] [TIFF OMITTED] T8304.039

[GRAPHIC] [TIFF OMITTED] T8304.040

[GRAPHIC] [TIFF OMITTED] T8304.041

[GRAPHIC] [TIFF OMITTED] T8304.042

[GRAPHIC] [TIFF OMITTED] T8304.043

[GRAPHIC] [TIFF OMITTED] T8304.044

[GRAPHIC] [TIFF OMITTED] T8304.045

[GRAPHIC] [TIFF OMITTED] T8304.046

[GRAPHIC] [TIFF OMITTED] T8304.047

[GRAPHIC] [TIFF OMITTED] T8304.048

[GRAPHIC] [TIFF OMITTED] T8304.049

[GRAPHIC] [TIFF OMITTED] T8304.050

[GRAPHIC] [TIFF OMITTED] T8304.051

[GRAPHIC] [TIFF OMITTED] T8304.052

[GRAPHIC] [TIFF OMITTED] T8304.053

[GRAPHIC] [TIFF OMITTED] T8304.054

[GRAPHIC] [TIFF OMITTED] T8304.055

[GRAPHIC] [TIFF OMITTED] T8304.056

[GRAPHIC] [TIFF OMITTED] T8304.057

[GRAPHIC] [TIFF OMITTED] T8304.058

[GRAPHIC] [TIFF OMITTED] T8304.059

[GRAPHIC] [TIFF OMITTED] T8304.060

[GRAPHIC] [TIFF OMITTED] T8304.061

[GRAPHIC] [TIFF OMITTED] T8304.062

[GRAPHIC] [TIFF OMITTED] T8304.063

[GRAPHIC] [TIFF OMITTED] T8304.064

[GRAPHIC] [TIFF OMITTED] T8304.065

[GRAPHIC] [TIFF OMITTED] T8304.066

[GRAPHIC] [TIFF OMITTED] T8304.067

[GRAPHIC] [TIFF OMITTED] T8304.068

[GRAPHIC] [TIFF OMITTED] T8304.069

[GRAPHIC] [TIFF OMITTED] T8304.070

[GRAPHIC] [TIFF OMITTED] T8304.071

[GRAPHIC] [TIFF OMITTED] T8304.072

[GRAPHIC] [TIFF OMITTED] T8304.073

[GRAPHIC] [TIFF OMITTED] T8304.074

[GRAPHIC] [TIFF OMITTED] T8304.075

[GRAPHIC] [TIFF OMITTED] T8304.076

[GRAPHIC] [TIFF OMITTED] T8304.077

[GRAPHIC] [TIFF OMITTED] T8304.078

[GRAPHIC] [TIFF OMITTED] T8304.079

[GRAPHIC] [TIFF OMITTED] T8304.080

[GRAPHIC] [TIFF OMITTED] T8304.081

[GRAPHIC] [TIFF OMITTED] T8304.082

[GRAPHIC] [TIFF OMITTED] T8304.083

[GRAPHIC] [TIFF OMITTED] T8304.084

[GRAPHIC] [TIFF OMITTED] T8304.085

[GRAPHIC] [TIFF OMITTED] T8304.086

[GRAPHIC] [TIFF OMITTED] T8304.087

[GRAPHIC] [TIFF OMITTED] T8304.088

[GRAPHIC] [TIFF OMITTED] T8304.089

[GRAPHIC] [TIFF OMITTED] T8304.090

[GRAPHIC] [TIFF OMITTED] T8304.091

[GRAPHIC] [TIFF OMITTED] T8304.092

[GRAPHIC] [TIFF OMITTED] T8304.093

[GRAPHIC] [TIFF OMITTED] T8304.094

[GRAPHIC] [TIFF OMITTED] T8304.095

[GRAPHIC] [TIFF OMITTED] T8304.096

[GRAPHIC] [TIFF OMITTED] T8304.097

[GRAPHIC] [TIFF OMITTED] T8304.098

[GRAPHIC] [TIFF OMITTED] T8304.099

[GRAPHIC] [TIFF OMITTED] T8304.100

[GRAPHIC] [TIFF OMITTED] T8304.101

[GRAPHIC] [TIFF OMITTED] T8304.102

[GRAPHIC] [TIFF OMITTED] T8304.103

[GRAPHIC] [TIFF OMITTED] T8304.104

[GRAPHIC] [TIFF OMITTED] T8304.105

[GRAPHIC] [TIFF OMITTED] T8304.106

[GRAPHIC] [TIFF OMITTED] T8304.107

[GRAPHIC] [TIFF OMITTED] T8304.108

[GRAPHIC] [TIFF OMITTED] T8304.109

[GRAPHIC] [TIFF OMITTED] T8304.110

[GRAPHIC] [TIFF OMITTED] T8304.111

[GRAPHIC] [TIFF OMITTED] T8304.112

[GRAPHIC] [TIFF OMITTED] T8304.113

[GRAPHIC] [TIFF OMITTED] T8304.114

[GRAPHIC] [TIFF OMITTED] T8304.115

[GRAPHIC] [TIFF OMITTED] T8304.116

[GRAPHIC] [TIFF OMITTED] T8304.117

[GRAPHIC] [TIFF OMITTED] T8304.118

[GRAPHIC] [TIFF OMITTED] T8304.119

[GRAPHIC] [TIFF OMITTED] T8304.120

[GRAPHIC] [TIFF OMITTED] T8304.121

[GRAPHIC] [TIFF OMITTED] T8304.122

[GRAPHIC] [TIFF OMITTED] T8304.123

[GRAPHIC] [TIFF OMITTED] T8304.124

[GRAPHIC] [TIFF OMITTED] T8304.125

[GRAPHIC] [TIFF OMITTED] T8304.126

[GRAPHIC] [TIFF OMITTED] T8304.127

[GRAPHIC] [TIFF OMITTED] T8304.128

[GRAPHIC] [TIFF OMITTED] T8304.129

[GRAPHIC] [TIFF OMITTED] T8304.130

[GRAPHIC] [TIFF OMITTED] T8304.131

[GRAPHIC] [TIFF OMITTED] T8304.132

[GRAPHIC] [TIFF OMITTED] T8304.133

[GRAPHIC] [TIFF OMITTED] T8304.134


</pre></body></html>
